<html>
<title> - TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEARS 2012 AND 2013 FOR THE TRAFFICKING VICTIMS PROTECTION ACT OF 2000, AND FOR OTHER PURPOSES; AND TO PROHIBIT FUNDING TO THE UNITED NATIONS POPULATION FUND</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 TO AUTHORIZE APPROPRIATIONS FOR FISCAL
                YEARS 2012 AND 2013 FOR THE TRAFFICKING
                VICTIMS PROTECTION ACT OF 2000, AND FOR
                OTHER PURPOSES; AND TO PROHIBIT FUNDING
                 TO THE UNITED NATIONS POPULATION FUND

=======================================================================



                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 2830 and H.R. 2059

                               __________

                            OCTOBER 5, 2011

                               __________

                           Serial No. 112-118

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
70-662                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2830, To authorize appropriations for fiscal years 2012 and 
  2013 for the Trafficking Victims Protection Act of 2000, and 
  for other purposes.............................................     3
  Amendment in the nature of a substitute to H.R. 2830 offered by 
    the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    66
  Amendments to the amendment in the nature of a substitute to 
    H.R. 2830 offered by:........................................
      The Honorable Karen Bass, a Representative in Congress from 
        the State of California..................................   106
      The Honorable Edward R. Royce, a Representative in Congress 
        from the State of California.............................   109
      The Honorable Christopher S. Murphy, a Representative in 
        Congress from the State of Connecticut...................   112
      The Honorable Jeff Fortenberry, a Representative in 
        Congress from the State of Nebraska......................   119
H.R. 2059, To prohibit funding to the United Nations Population 
  Fund...........................................................   125
  Amendments to H.R. 2059 offered by:............................
      The Honorable Gerald E. Connolly, a Representative in 
        Congress from the Commonwealth of Virginia...............   142
      The Honorable Karen Bass...................................   147
      The Honorable Donald M. Payne, a Representative in Congress 
        from the State of New Jersey, and the Honorable William 
        Keating, a Representative in Congress from the 
        Commonwealth of Massachusetts............................   154
      The Honorable Donald M. Payne..............................   157
      The Honorable David Cicilline, a Representative in Congress 
        from the State of Rhode Island, and the Honorable Allyson 
        Schwartz, a Representative in Congress from the 
        Commonwealth of Pennsylvania.............................   164
      The Honorable David Cicilline..............................   173
      The Honorable William Keating..............................   177
      The Honorable Christopher S. Murphy........................   181
      The Honorable William Keating and the Honorable David 
        Cicilline................................................   186
      The Honorable Gregory W. Meeks, a Representative in 
        Congress from the State of New York, and the Honorable 
        Frederica Wilson, a Representative in Congress from the 
        State of Florida.........................................   193

                                APPENDIX

Markup notice....................................................   202
Markup minutes...................................................   203


  TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEARS 2012 AND 2013 FOR THE 
TRAFFICKING VICTIMS PROTECTION ACT OF 2000, AND FOR OTHER PURPOSES; AND 
       TO PROHIBIT FUNDING TO THE UNITED NATIONS POPULATION FUND

                              ----------                              


                       WEDNESDAY, OCTOBER 5, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    Before we move to today's business, I would like to take a 
minute to welcome our newest member, Representative Bob Turner, 
who was appointed to the committee just this week. He is a 
lifelong resident of the neighborhoods of New York's Ninth 
District that he now represents.
    Congressman Turner won the special election in that 
district just over 3 weeks ago. He is known to many for his 
successful career as an executive and an entrepreneur in media 
and television industries.
    But I suspect that what he is most known for is his role as 
husband to Peggy for 46 years now. And she is a dedicated 
foster care nurse. He is a father to their five children and a 
grandfather to their 13 grandchildren.
    And we are glad that he has joined us. He is known for his 
charity work on behalf of adoption services in his area.
    We look forward to his valuable contributions to the 
important foreign policy work of the Committee on Foreign 
Affairs in the weeks and the months ahead.
    So please join me in welcoming Congressman Turner with a 
brief round of applause.
    [Applause.]
    Mr. Turner. Thank you and thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Turner.
    Next time you speak when I yield you the time. [Laughter.] 
Or this thing gets flung over there.
    Mr. Berman, I do not know if you want to make any opening 
remarks.
    Mr. Berman. Just join the chairman in welcoming you. And 
look forward to working with you in what I sometime refer to 
as--it is like going to graduate school where you do not have 
to take any tests or get any grades.
    Chairman Ros-Lehtinen. Well, thank you.
    Well, today we will have a pop quiz because we are going to 
proceed on to today's business. At the outset, without 
objection, let me note that all members may have 5 legislative 
days to submit remarks on either of today's bills for the 
record.
    Pursuant to notice, I call up the bill H.R. 2830, the 
Trafficking Victims Protection Reauthorization Act of 2011.
    Ms. Carroll. H.R. 2830, to authorize appropriations for 
Fiscal Years 2012 and 2013 for the Trafficking Victims 
Protection Act----
    Chairman Ros-Lehtinen. Without objection, the bill is 
considered as read and open for amendment at any point.
    [H.R. 2830 follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. In addition, without objection, the 
bipartisan amendment in nature of a substitute offered by Mr. 
Smith, which was previously provided to your offices and which 
all members have before them, is made the pending business of 
the committee, is considered as read, and is open for amendment 
at any point.
    [The amendment in the nature of a substitute to H.R. 2830 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Ros-Lehtinen. I will now recognize myself for 
remarks on this measure, followed by my friend, the ranking 
member, the bill's author, Mr. Smith, and then any other 
members who seek recognition.
    As many here know, every year hundreds of thousands of 
people are trafficked around the world, most of them women and 
girls. Millions more are trapped within their own countries, 
forced to work in dangerous labor and sexual servitude.
    This form of modern-day slavery is an affront to human 
dignity as well as a major source of revenue for international 
criminal syndicates. This scourge is not limited to a 
particular geographic region or only to developing countries.
    Ultimately the tragedy of human trafficking lies not in 
statistics but in the individual lives, hopes, and dreams that 
are being crushed for a particular person, in a particular 
place, today.
    I am proud of the bipartisan, leading role that the House 
and this committee have played in moving the fight against 
human trafficking from a non-issue to a priority of our United 
States Government.
    I especially want to commend the leadership of my good 
friend from New Jersey, Mr. Smith, the author of the original 
Trafficking Victims Protection Act, which became law 11 years 
ago this month, who is the author of the bill before us today.
    I also want to recognize the long-standing efforts of the 
ranking member, Mr. Berman, with whom we worked on the last 
enacted reauthorization bill, the William Wilberforce 
Trafficking Victims Protection Reauthorization Act, which he 
introduced in 2008.
    We can take some solace in the fact that these efforts have 
dramatically raised the international profile of this slavery 
and have prompted a number of countries to pass their own anti-
trafficking statutes. There has also been a rise in the number 
of international prosecutions for trafficking, over 6,000 last 
year, leading to over 3,600 convictions.
    But so much more remains to be done. Trafficking arrests 
vastly outnumber prosecutions and convictions. And 22 countries 
have earned the dubious distinction of the worst Tier III 
status in the State Department's annual rankings, an increase 
of ten countries since the last report. This means that those 
countries, which include the perennial rogues such as Iran, 
Cuba, and North Korea are not trying to meet even the most 
basic anti-trafficking standards.
    For all of these reasons, this bill, which conditions and 
strengthens our anti-trafficking activities in a fiscally-
responsible manner, is vitally important.
    I want to thank Mr. Smith, Mr. Berman, and all of those 
involved with this bipartisan effort. I support Mr. Smith's 
amendment in the nature of a substitute and remain committed to 
moving his bill, H.R. 2830, forward.
    I now am pleased to yield to my friend, the ranking member, 
for his remarks on this measure.
    Mr. Berman. Well, thank you very much, Madam Chairman. And 
thank you for scheduling the markup so promptly.
    For the last 11 years, the Trafficking Victims Protection 
Act, authored by our colleague, Chris Smith, has provided 
protection and assistance for victims of trafficking, 
authorized public awareness prevention campaigns, and 
strengthened the prosecution and punishment of traffickers.
    The bill before us today builds on the successes and 
lessons learned over the last decade. Many of us, including the 
author, supported a more comprehensive version of this 
reauthorization bill that was introduced a few months ago. 
Regrettably, that bill had to be scaled back due to cost and 
jurisdictional issues.
    Let me take just a moment to highlight a couple of 
important provisions from the comprehensive bill that will not 
be included in this version, the amendment in the nature of a 
substitute.
    One is establishment of a Department of Defense director of 
anti-trafficking policies. And the second relates to foreign 
labor contracting. Both of these would have addressed the 
urgent problem of fraudulent and deceptive labor recruitment in 
the United States and among DoD contractors, particularly in 
Iraq and Afghanistan.
    Many of the contractors charge exorbitant fees for their 
services, forcing workers into debt bondage. Many of the 
workers are underpaid, ill treated, and deceived about their 
conditions of employment. They are housed in atrocious living 
conditions, starved and unable to leave the camp or return home 
as they have no travel papers.
    These kinds of problems are stark reminders that we need 
stricter regulation and monitoring of labor recruiters. So if 
we are truly serious about combating modern-day slavery in all 
its forms, we have to fund a way to fund these programs.
    Having said that, this bill does include a number of 
important provisions that will help prevent, deter, and monitor 
trafficking in the U.S. and abroad.
    The bill calls on the President to support public/private 
partnerships to generate youth employment opportunities to 
prevent trafficking. It asks the President to prioritize the 
initiatives for potential trafficking victims who are also 
refugees, internally displaced, stateless, victims of natural 
disasters, and other marginalized communities.
    It also requires the Department of Labor to report on the 
list of goods from countries believed to be produced by forced 
or child labor in foreign countries as well as the United 
States. And it encourages the Department of Justice and Health 
and Human Services to make reasonable efforts to raise public 
awareness for the national trafficking hotline.
    These are just a few of the ways in which this bill will 
strengthen our efforts to fight the trafficking of persons 
worldwide. I commend the author for introducing it, the 
chairman for sending it for markup, and urge my colleagues to 
support this legislation.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    At this point, I would like to recognize the author of this 
measure, the chairman of the Subcommittee on Africa, Global 
Health, and Human Rights, Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you very much, Madam Chair. And I want to 
thank you for scheduling this markup, for your strong support 
for this anti-trafficking legislation, and for your many inputs 
as we went and drafted it.
    And I want to thank Mr. Berman for being the prime 
cosponsor, for his authorship of the Wilberforce Act just a 
couple of years ago.
    This is one of those examples I think where we can have 
very strong bipartisan cooperation to combat modern-day slavery 
in all of its forms, whether it be sex trafficking or labor 
trafficking.
    This is the fourth reauthorization of the Trafficking 
Victims Protection Act. And we have learned many lessons over 
the past decade. And we have made great strides in combating 
this fundamental human rights abuse. Women, children, and men 
around the world continue to be victimized and this effort is a 
very real remedy to that situation.
    It is critical we continue the United States leadership and 
efforts to end human trafficking, both domestically and abroad.
    The amendment in the nature of a substitute takes into the 
account the extreme fiscal constraints that we face in our 
country and the need to reduce our Federal deficit. Much to my 
regret, the cost of several provisions in H.R. 3830 and now the 
amendment in the nature of a substitute necessitated their 
removal for consideration at this time.
    However, it is my sincere hope and expectation that 
important initiatives such as the creation of a special anti-
trafficking office within the Department of Defense, something 
I pushed for 8 years, failed every time, but we will stay at it 
until we get that, and a comprehensive mechanism to regulate 
foreign labor contracting will be back on the table when 
resources are available. And especially with the latter, when 
the Senate shows some interest in backing it.
    We know that there is very strong opposition to that. There 
is a GAO report in the Senate version. Hopefully that will 
cause a change of heart over there.
    A number of important provisions for preventing and 
prosecuting trafficking and protecting trafficking survivors do 
remain in this amendment. One would give the Secretary of State 
the authority to limit the validity of the passports of 
registered sex offenders to 1 year or such period as the 
Secretary would deem appropriate.
    The need for this authority became apparent when the 
Government Accountability Office, the GAO, reported last year 
that over 4,500 registered sex offenders were issued passports 
in Fiscal Year 2008. And, of course, they are good for 10 
years. Who knows where they are going? What they are doing? We 
can only suspect. This includes an offender who was convicted 
of attempted rape of a child with special needs. And another 
who attempted sex with a 2-year-old girl.
    The State Department clearly needs this authority to limit 
the travel of such individuals who are likely to engage in 
severe forms of human trafficking in other countries.
    Furthermore, the amendment would authorize assistance to be 
used to protect vulnerable populations at risk of severe forms 
of human trafficking in post-conflict situations and 
humanitarian emergencies, provide additional tools to prosecute 
sex trafficking abroad, and increase monitoring of forced child 
or sex labor here in the United States.
    It also expands the information to be included in the 
Attorney General's annual report to include any contracts 
terminated by a Federal agency as the result of human 
trafficking by a contractor and whether any employees have been 
disciplined, terminated, or prosecuted for violating the zero 
tolerance policy.
    I would also point out, and this came right out of your 
hearing, Madam Chair, when we looked at the Peace Corps and 
sexual violence that was being committed against women who were 
Peace Corps volunteers. It became apparent at that hearing, and 
I did ask some questions of the Peace Corps director, whether 
or not the Peace Corps was involved with the interagency 
trafficking task force. He said no. That legislation or that 
language is now included so the director of the Peace Corps 
will become part of the task force.
    So thank you to all of my colleagues for their support. And 
again, thank you, Madam Chair, and thank you Ranking Member 
Berman.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Smith.
    Before we move to consider other amendments, do any other 
members seek recognition to speak on the underlying Smith 
amendment in the nature of a substitute?
    Ms. Bass is recognized for 5 minutes.
    Ms. Bass. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Berman for prioritizing the reauthorization of the 
Trafficking Victims Protection Act.
    Human trafficking continues to be a reality for as many as 
27 million people throughout the globe. Fortunately, advocates, 
survivors, and dedicated Members of Congress, like many in this 
room today, have shed light on this complex challenge and 
created laws to help stop this exploitation.
    I am proud to join in their efforts to strengthen policies 
that prevent human trafficking, prosecute perpetrators, protect 
victims, and build effective partnerships.
    I would also like to extend my gratitude to Representative 
Chris Smith for his tireless leadership in combating human 
trafficking. Even before the first incarnation of the 
Trafficking Victims Protection Act in 2000, he has pushed to 
improve the ways in which the United States responds to human 
trafficking and has continually worked to implement creative 
solutions to prevent this exploitation.
    Representative Smith, I commend your diligence and 
dedication. And I look forward to continuing to work with you 
on this issue.
    Chairman Ros-Lehtinen. Thank you, Ms. Bass.
    I will now recognize Mr. Gallegly for 5 minutes.
    Mr. Gallegly. Thank you, Madam Chairman.
    I believe we must do our part to provide the tools to 
combat trafficking of persons both worldwide and domestically. 
However, while I am very supportive of the improvements made in 
this amendment and have great respect for my good friend 
Chairman Chris Smith--or the author of the bill, Chris Smith, 
and all of the work that he has done over the years on 
trafficking, and I agree with his objectives 100 percent.
    Having said that, I still think that there are some issues 
that I have concern with regarding the legislation. As the 
chairman of the Immigration Policy and Enforcement 
Subcommittee, I must state that I have some objectives--
objections to several provisions of the bill under the 
Immigration Subcommittee's jurisdiction.
    While I know that we are not here to mark up these parts of 
the bill today, I must make it clear that the legislation does 
have what I consider some problems that need to be addressed 
before we move to the floor.
    I do not believe we can require law enforcement to grant 
continued presence within 15 to 30 days to an alien who may be 
a victim of trafficking. Law enforcement needs more time to 
verify an individual's identity, veracity of information, and 
so forth.
    We cannot afford to shift the standard so that all a victim 
applicant has to do is claim they are trafficking victims to 
obtain continued presence. Because law enforcement cannot do 
the job under many of the provisions under the bill, I think we 
need to really be careful as we move this bill forward so that 
we do not compromise the objectives that I think more of us, if 
not all of us, share in Chris Smith's focus on doing everything 
humanly possible to eliminate or mitigate to the limits of our 
ability the issue of human trafficking. But we also have to be 
careful that we are not allowing individuals to use trafficking 
as a conduit to--as a claim and not just for real purposes.
    So I yield back.
    Chairman Ros-Lehtinen. Thank you.
    The Chair recognizes herself to say that she agrees with 
the gentleman from California, that he is right in stating that 
this committee's jurisdiction does not extend to the areas that 
he has alluded to. The bill has been further referred to the 
Judiciary Committee. We will be marking up the sections of the 
bill that are under our jurisdiction.
    And with that, Mr. Connolly is recognized for 5 minutes.
    Mr. Connolly. I thank the chair. And I commend my 
colleagues, Mr. Smith of New Jersey and the ranking member, Mr. 
Berman of California, for introducing H.R. 2830.
    This bill authorizes appropriations for the next two fiscal 
years for the Trafficking Victims Protection Act of 2000. TVPA 
created the State Department's Office to monitor and combat 
Trafficking in Persons (TIP), an office which has supported 
more than 450 projects to combat modern human slavery in 109 
countries.
    The office publishes the annual report, which ranks 
countries according to their compliance in combating human 
trafficking. No country is spared from being named and shamed 
in the TIP report.
    According to the 2011 report, the United States is a 
source, transit, and destination country for men, women, and 
children subjected to forced labor, debt bondage, document 
servitude, and sex trafficking. As recently as June of last 
year, an article in a Richmond-based magazine described the 
prevalence of such activity in the Richmond area.
    The article detailed a 2006 FBI case that involved Korean 
women being used in brothels from Rhode Island to Virginia. 
Similarly, there were reports in the Washington Post that year 
about massage parlors as fronts for prostitution rings. Such 
examples show how human trafficking takes place within our very 
own borders.
    The United States has not been passive with regard to the 
issue. Over the last decade, the TIP office has actively fought 
human trafficking through provisions laid out in the Victims of 
Trafficking and Violence Protection Act of 2010.
    The annual TIP report is a credible, detailed survey of 
violations in various countries, the office to monitor and 
combat trafficking of persons in the State Department under the 
leadership of Ambassador CdeBaca fulfils much needed duties in 
the United States foreign policy apparatus. The TIP office 
works to combat the issue of human trafficking and is a great 
example of a government-funded investment that pays dividends.
    I look forward to supporting the underlying legislation and 
the amendment offered by the gentleman from New Jersey.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Connolly.
    Mr. Poe is recognized for 5 minutes.
    Mr. Poe. Thank you, Madame Chairman.
    The Trafficking Victims Protection Act has brought great 
changes throughout the world. I strongly support this 
reauthorization and glad to be a cosponsor. I commend Mr. Smith 
from New Jersey, the chairman, and the ranking member for 
bringing this to this committee.
    It is critical we continue program to prosecute traffickers 
and protect the victims. Because of the TVPA, we can no longer 
be blissfully ignorant of the dastardly crime happening 
throughout the world and even in the United States. Countries 
all over the globe have been forced to take a hard look at 
trafficking within their own borders and create policies to 
address this crime.
    In my travels to Eastern Europe as a part of this 
committee, I have discussed with people there the issue of 
human trafficking or slavery as it should be called. The way it 
works is this. Young women who cannot find work or jobs learn 
through the Internet or some ad in the local newspaper about 
employment somewhere else in the world, either in another 
country or even sometimes in their own cities.
    So they leave home, maybe from the nation of Ukraine or 
Romania. And they meet up with another person. It is usually a 
male. And he promises that he will take care of them. He will 
find them a job. And they will be happy.
    And, of course, what they end up doing is becoming a piece 
of property, a forced individual into prostitution, a slave of 
this individual. The male does what he can to sell that young 
female into slavery and even slave labor.
    Back home where the young female comes from, their families 
many times never even know what happened to their daughter or 
to their sisters. Sometimes then eventually when the slave is 
of no use in the prostitution racket, she just disappears and 
without knowledge of her parents.
    This takes place in countries throughout eastern Europe and 
other nations as well. But we cannot overlook the fact that 
human trafficking happens here in the United States of America.
    Here is the way it works here and it happens in my hometown 
of Houston, Texas. Young women--either adults but many times 
minors from a foreign country are smuggled into the United 
States illegally by someone who promises that when he gets them 
to the U.S., he will have a job waiting for them where they can 
work and send money back home to their families.
    In some cases, these young women have actually paid the 
trafficker to smuggle them to the United States, expecting that 
job that they were promised. Once they are in the United 
States, they become the property of the sex trafficker. And he 
forces them into prostitution.
    And he uses threats against them. It is as simple as if 
they do not cooperate, the slave master will have the family 
killed back in their home country. So what decision does a 14-
year-old girl make when she is threatened that her family will 
be killed if she does not cooperate? Tough decision and many 
times they make the decision to continue in prostitution with 
the hope that their parents, their brothers and sisters, will 
not be murdered.
    The victim does not speak the language. She is in the 
United States and the person says cooperate and work for me or 
you will be punished and your family will be killed. So they 
chose the alternative they think they have to choose and become 
a slave and traffic it into the United States and allow the 
person to use them as property in the trafficking business.
    What a dastardly deed that is occurring in this country and 
other countries. But thanks to the TVPA, these international 
victims now have access to services so they can help recover 
from their exploitation.
    And we cannot forget about domestic victims as well. Young 
girls from our own neighborhoods are being forced into slavery, 
many times sex slavery. Their childhood, their innocence is 
stolen in the name of greed by some slave master.
    We must ensure that these victims have access to services. 
And we must make sure that they are treated as victims of crime 
and not criminals and not treated like prostitutes. Human 
trafficking is slavery. And as we fight for human rights 
throughout the world, we must fight to stop this slavery in all 
forms. Treat the young women as victims, not criminals. And 
then we need to take care of the customers and, of course, the 
traffickers and make sure they get their day in court.
    So I support this bill and urge my colleagues to do the 
same. And that is just the way it is.
    Chairman Ros-Lehtinen. Thank you, Mr. Poe.
    Mr. Chabot is recognized for 5 minutes.
    Mr. Chabot. Thank you, Madam Chair.
    I just want to take a moment to commend the gentleman from 
New Jersey, Mr. Smith, for his work on not only this 
legislation but for all the work he has done over the years in 
the area of human trafficking.
    I was traveling in South Asia last week and on Friday had 
the opportunity to visit an orphanage in Kathmandu called Mytai 
Nepal. The program benefits sexually abused girls, abandoned 
children, victims of trafficking, girls and children infected 
with HIV and hepatitis B, and returnees from Indian brothels, 
among others. It is a truly amazing operation that gives hope 
to women and girls who once had no hope whatsoever.
    And I have to say that visiting there was one of the more 
moving experiences that I have ever had. When I told folks 
there that I would discuss this when I got back here at the 
visit with Congressman Smith, who has worked on these 
humanitarian issues for many years, they all told me that they 
were actually well aware of Mr. Smith's efforts around the 
world. They were grateful for what he has done on behalf of 
exploited women and children, you know, around the world, 
particularly in Nepal.
    So I just wanted to bring the gentleman best wishes from 
those as far away as Nepal who he has aided. And I commend him 
for offering this legislation today.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Chabot. Thank you.
    Chairman Ros-Lehtinen. Seeing no further requests for time, 
we will now move to consider amendments to the underlying Smith 
amendment.
    Mr. Keating. Madam Chair, if I could?
    Chairman Ros-Lehtinen. Sorry.
    Mr. Keating. Thank you, Madam Chair. I will be very brief.
    I just wanted to underscore one aspect of this legislation. 
For the last 12 years before being elected, I was a district 
attorney. We worked exceedingly hard with local law 
enforcement, with state law enforcement, with regional 
officials, particularly in the area of Boston with special task 
forces that were there.
    And our frustration during that whole time was we were at 
the last stage, the receiving end of trying to deal with this 
and the frustration of saying more has to be done, not just at 
the national level but also in the international level.
    So as we go forward with this legislation, I just want to 
commend the author. And I want to say that this is very 
important legislation. So often we deal with international 
issues here in the committee. This is one that will have an 
effect right back home as well.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, sir.
    Do any other members seek recognition?
    [No response.]
    Chairman Ros-Lehtinen. Seeing no requests for recognition, 
we will now move to consider amendments to the underlying Smith 
amendment. At this point, I ask unanimous consent that the 
following amendments, which the ranking member and I anticipate 
will be noncontroversial, be considered en bloc. And the 
amendments are in your packets.
    Amendment 30, offered by Ms. Bass, requiring a one-time 
report on Internet-facilitated trafficking; Amendment 59, 
offered by Mr. Royce, expressing the sense of Congress on 
trafficking in Cambodia; Amendment 49, offered by Mr. Murphy, 
directing the State Department Trafficking Office to encourage 
large business entities to publicly disclose their anti-
trafficking efforts and policies; and Amendment 82, offered by 
Mr. Fortenberry, making amendments to Title IV of the 2008 
Trafficking Reauthorization Act concerning child soldiers.
    [The amendments referred to follow:]<greek-l>Bass 030 deg.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <greek-l>Royce 059 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <greek-l>Murphy 049 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <greek-l>Fortenberry 082 deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Do any of the amendment authors wish 
to be recognized to explain their portion of the en bloc 
amendments?
    Mr. Fortenberry is recognized for 5 minutes.
    Mr. Fortenberry. All right. Thank you, Madam Chair, for 
calling this hearing and your leadership in this regard.
    In 2008, at a markup for the William Wilberforce 
Trafficking Victims Act, this committee did something very 
courageous. We stated that the policy of our nation will be 
that children, no matter where they are, belong on playgrounds 
and not battlegrounds. Children should not be forced to become 
soldiers.
    And we would not sit idly by and passively underwrite this 
pernicious form of human trafficking known as child 
conscription.
    The problem now is this. National security waivers continue 
to be given to countries found guilty of this human rights 
abuse. We know that these waivers must be rare and temporary 
and meaningfully intended to help stop this pernicious 
practice.
    So this body unanimously passed an amendment to the State 
Department authorization bill to require the President to 
report to Congress 15 days before issuing another waiver as to 
what credible and verifiable steps are being undertaken in 
those countries to implement a plan of action to end the 
recruitment of and demobilize child soldiers.
    The State Department authorization bill also included 
language prohibiting the use of peacekeeping operation funds 
for countries cited for child soldiers violations.
    So, Madam Chair, my amendment today is simple. It simply 
amends section 404 of the 2008 Trafficking Victims Protection 
Act to retain both of these provisions because strengthening 
our child soldiers policy is essential to our anti-human 
trafficking efforts.
    I yield back, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Fortenberry.
    Mr. Fortenberry. I yield.
    Mr. Berman. I appreciate the gentleman yielding. This is--
all four of these amendments that are part of the en bloc 
amendment are very good amendments. I particularly want to 
mention that I think we should not be casually waiving the 
restrictions on child soldiers in providing military 
assistance.
    And I think both the notification provision and the 
requirement for some action by that government to start the 
corrective action of that situation is a pretty reasonable 
requirement for this. And I urge adoption of this and the other 
amendments in the en bloc.
    Mr. Fortenberry. I thank the ranking member for his 
support. I yield.
    Chairman Ros-Lehtinen. Thank you, Mr. Fortenberry.
    Ms. Bass is recognized to explain her amendment.
    Ms. Bass. Yes, thank you, Madam Chair.
    I am offering a bipartisan amendment that will investigate 
and prevent human trafficking online. With the widespread use 
of the Internet, the sale and trafficking of individuals has 
gotten easier and increasingly anonymous.
    While the Internet has helped to connect the world, it has 
also created a haven for the exploitation of men, women, and 
children. Cloaked by computers, online traffickers and 
perpetrators can gain 24-hour access to vulnerable children and 
individuals.
    So the amendment calls for the State Department to 
spearhead an interdepartmental study on Internet-facilitated 
trafficking and proposed methods to prevent these crimes. You 
know often when we are talking about trafficking, we are 
talking about children and young people, women around the 
world. But this also relates to people inside the United States 
and in particular children.
    I also wanted to thank Representative Chabot and 
Representative Wolf for serving as the original cosponsors of 
the bill, which is now, you know, included as an amendment for 
this. But I also want to mention that another part, the 
language in the bill references children in the United States. 
And we did just launch a foster care caucus this morning with 
my colleague, Mr. Marino.
    We just came from the first meeting of that caucus. And I 
am excited that there is a part of this bill that has language 
in it that addresses who we essentially train the child welfare 
system, people in the system, so that they can recognize 
trafficking since we know that a lot of young people in our own 
country are involved in trafficking, especially with the 
Internet and the expansion of Web sites such as Backpage.
    So thank you very much. That is my amendment. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Ms. Bass.
    Mr. Royce is recognized to explain his amendment.
    Mr. Royce. Thank you, Madam Chairman. I just want to also 
congratulate Mr. Smith for his dedication in trying to call 
attention to this.
    But to also note that a number of NGOs and Dateline 
continue to focus on Cambodia. And the fact that it is a magnet 
for those preying on the youngest.
    Predators travel halfway around the world in order to link 
up in remote Cambodian villages with children, some as young as 
three. There are 30,000 children in that country that have been 
sold into this type of servitude.
    And my chief of staff, Amy Porter, traveled to Cambodia to 
work with these children rescued from the brothels there. And 
we have had a number of hearings in this committee and in the 
Lantos Human Rights Commission that have spotlighted these 
abuses.
    We have got the NGO groups that work in the country and the 
eyewitnesses reporting that the Cambodian Government continues 
to actually hamper and get in front of these investigations and 
block these investigations. The local police and government 
officials are often pocketing very lucrative profits out of 
this.
    So it is time to go on record against these really horrific 
abuses that have become endemic there. And the State Department 
needs to hold Cambodia accountable. That is the sense of this 
amendment.
    It finds that Cambodia should be designated as a Tier III 
country. When I brought this up with Ambassador Luis CdeBaca to 
reconsider when they were downgrading Cambodia, at a time when 
the situation was getting worse in-country, they sadly 
indicated well, this was the step they were going to take.
    They are taking the pressure off of Cambodia. We have to do 
exactly the opposite. We have to put them back up as a 
designated Tier III country. And that is what this amendment 
would do.
    And I thank you, Madam Chairman, for putting it in the en 
bloc amendment.
    Chairman Ros-Lehtinen. Thank you, Mr. Royce.
    Mr. Murphy is recognized to explain his amendment.
    Mr. Murphy. Thank you, Madam Chair.
    And thank you very much to Congressman Smith for his 
leadership on this bill.
    This bill, at its foundation, has the idea that our 
Government and our State Department can do so much more to try 
to prevent the child trafficking and forced labor that is still 
endemic to so many places around the globe.
    The amendment that is included in this en bloc that I am 
offering would recognize that we have another partner in this 
effort to combat human trafficking and child trafficking. And 
that is our corporate community.
    Already some of the world's biggest and most expansive 
corporations have joined together in an organization called the 
Business Coalition against Human Traffic. It is Coca Cola, JP 
Morgan, Delta, The Body Shop, to name a few.
    And this amendment, which has as its genesis, the 
legislation offered by Carolyn Maloney, would encourage 
companies, through the State Department, to post on their Web 
site their policies for preventing forced labor, slavery, and 
human trafficking.
    And the amendment outlines a number of suggested steps that 
companies can take as part of that policy, whether it is 
requiring audits of their suppliers to makes sure that their 
supply chain does not have any of these elements to force labor 
or human traveling, whether it be training for people in the 
supply chain to again make sure that they are dealing only with 
responsible and humane contractors and suppliers 
internationally.
    This amendment would simply try to encourage these big 
companies with over $100 million in global receipts to post on 
their Web sites the steps that they are taking. And we hope 
that this amendment would encourage major international 
companies with long supply chains that are not already doing 
these types of audits throughout their international business 
platforms, to do so and then make those audits and make that 
information available.
    This really has to be a comprehensive effort at stopping 
human trafficking that starts with the government, that starts 
with the very good underlying bill, but it can also include a 
private consensus that is already developing around this 
business coalition that this amendment can facilitate.
    And I thank the chair and I thank the sponsor of the bill 
for allowing this amendment to move forward.
    Chairman Ros-Lehtinen. Thank you, sir.
    Do any other members seek recognition?
    Mr. Smith. Just very briefly.
    Chairman Ros-Lehtinen. Mr. Smith is recognized.
    Mr. Smith. Thank Mr. Fortenberry, Ms. Bass, Mr. Murphy, Mr. 
Royce for their amendments. I think they all are very, very 
important additions to the legislation.
    I would point out to Mr. Murphy that the language he is 
offering is an encouragement. And I think that is very 
important.
    Carolyn Maloney and I do have a bill in that parallels the 
California bill, which would be much stronger but it would use 
the SEC rather than the trafficking office. And I have checked 
with Luis CdeBaca, our Ambassador-at-Large for human 
trafficking. He is very supportive of this effort, feels that 
they can accommodate it, and do it. And, again, it is an 
encouragement rather than something that is mandatory. So I 
think it is a good strengthening amendment.
    Chairman Ros-Lehtinen. Thank you, sir.
    Do any other members seek recognition on the en bloc 
amendments?
    [No response.]
    Chairman Ros-Lehtinen. Hearing no further requests for 
recognition, the question occurs on the en bloc amendment. All 
those in favor, say aye.
    [Chorus of ayes.]
    Chairman Ros-Lehtinen. All opposed, no.
    In the opinion of the Chair, the ayes have it. And the en 
bloc amendment is agreed to.
    Are there any other amendments to the trafficking measure?
    [No response.]
    Chairman Ros-Lehtinen. Hearing no further amendments, the 
question is on agreeing to the bipartisan Smith amendment in 
the nature of a substitute, as amended.
    All those in favor say aye.
    [Chorus of ayes.]
    Chairman Ros-Lehtinen. All those opposed, no.
    In the opinion of the Chair, the ayes have it. And the 
amendment in the nature of a substitute is agreed to.
    Without objection, the underlying bill, H.R. 2830, as 
amended, is agreed to. And I now move that the Bill H.R. 2830 
be reported favorably to the House as amended.
    All those in favor say aye.
    [Chorus of ayes.]
    Chairman Ros-Lehtinen. All opposed, no.
    The ayes have it. And the motion to report favorably is 
agreed to.
    Without objection, the bill, as amended, will be reported 
as a single amendment in the nature of a substitute, 
incorporating the amendments adopted by the committee. And the 
staff is directed to make technical and conforming changes.
    This ends the trafficking bill consideration.
    And pursuant to notice, I now call up H.R. 2059, to 
prohibit funding to the United Nations Population Fund.
    The clerk will read the bill.
    Ms. Carroll. H.R. 2059, to prohibit funding to the United 
Nations Population Fund, be it enacted by the Senate and House 
of Representatives of the United States of America and Congress 
assembled, section 1, prohibition on funding to the United 
Nations Population Fund. Notwithstanding any other provision of 
law, the Secretary of State may not make a contribution to the 
United Nations Population Fund (UNFPA).
    [H.R. 2059 follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you. The bill is read and open 
for amendment.
    As your offices were previously notified, before moving to 
amendments, I will recognize myself and the ranking member for 
general remarks on the bill followed by the author of the bill, 
Ms. Ellmers. And then any other members who seek recognition.
    This morning the committee will mark up H.R. 2059, which 
prohibits funding to the United Nations Populations Fund, or 
UNFPA. The purpose of this legislation is simple. To prevent 
U.S. taxpayer dollars from benefitting coercive abortion and 
sterilization programs.
    China's policy of coerced abortions is one of the most 
visible and deplorable human rights abuses. It has contributed 
directly to the elimination of millions of young girls, which 
has increased the demand for trafficked women and girls in the 
region.
    But instead of condemning China's behavior, UNFPA not only 
supports China's coercive one-child policy, but commends it as 
a ``model'' for population programs across the globe.
    In 1999, a UNFPA represented stated, ``China has had the 
most successful family planning policy in the history of 
mankind in terms of quantity. And with that, China has done 
mankind a favor.''
    Now U.S. law is clear. The Kemp-Kasten Amendment, first 
enacted in 1984, states that U.S. assistance cannot be provided 
to any organization that ``supports or participates in the 
management of a program of coercive abortion or involuntary 
sterilization.''
    The late Congressman Jack Kemp had stated that UNFPA 
funding would likely be effected by his amendment, ``because of 
UNFPA's involvement with a program of coercive abortions in the 
Peoples Republic of China.'' Pursuant to this amendment, three 
previous administrations have stopped assistance to UNFPA. 
Justifying this cut off of assistance, then Secretary of State 
Colin Powell stated in 2002, ``UNFPA's support of and 
involvement in China's population planning activities allows 
the Chinese Government to more effectively its program of 
coercive abortions. Therefore, it is not permissible to 
continue funding UNFPA at this time.''
    The State Department has repeatedly found that UNFPA 
refuses to provide detailed information on its activities in 
China. In December 2010, the Vice Minister of China's National 
Population and Family Planning commission thanked UNFPA for, 
``its constant support to China's population and family 
planning undertakings during the past 30 years or more.''
    UNFPA continues business as usual, and last year it 
approved another 5-year operations plan for China. 
Unfortunately, the Obama administration has failed to enforce 
U.S. law, claiming that the Kemp-Kasten amendment does not 
apply to UNFPA.
    Accordingly, congressional action is necessary to prevent 
U.S. taxpayer dollars from continuing to benefit USFPA in 
contravention of U.S. law.
    I would note that, while some claim that UNFPA does not use 
U.S. funding for its programming in China, we all know that 
money is fungible. Directing U.S. funding to UNFPA activities 
in other areas of the world simply frees up other funding for 
their China program.
    There are far better uses of U.S. taxpayer dollars than 
funding for the UNFPA. In fact, UNFPA clearly does not need 
U.S. funding. Reports indicate that UNFPA has built up reserves 
and unspent funds of $500 million.
    UNFPA's annual report for 2010 indicated that its budget 
totaled $870 million, a record amount. So why when Americans 
are facing a struggling economy, skyrocketing deficits, and 
crushing debt should our taxpayer dollars go to an organization 
that supports coercive abortion and is flush with cash. Again, 
there are much better uses for taxpayer funds than sending 
millions to UNFPA.
    And so I thank the distinguished gentlelady from North 
Carolina, Ms. Ellmers, for introducing this important bill. I 
strongly urge my colleagues to support it in its current form.
    And I now am pleased to recognize the ranking member for 
his remarks on this measure.
    Mr. Berman. Well, thank you very much, Madam Chairman.
    And thank you on this issue we disagree. This legislation, 
like the State Department authorization bill we marked up in 
July and the U.N. bill we will soon consider, I believe will 
undermine America's influence and standing in the international 
community. It is an example of civilian cut and run par 
excellence.
    Tragically, the bill takes aim at poor women and children 
in the developing world, women and children who all too often 
suffer from the effects of disease, war, rape, and a host of 
absolutely horrid conditions that few of us can even begin to 
imagine.
    Rather than helping these desperate people, as UNFPA seeks 
to do, this legislation makes them pawns in a debate over 
social issues that often seem divorced from reality. Indeed I 
can think of few other organizations subject to more 
misinformation, misunderstanding, and outright falsehoods than 
UNFPA.
    I know that discussing UNFPA generates a lot of emotion 
among some of my colleagues. But that does not mean that 
passionate arguments should be allowed to trump the facts. 
UNFPA does not promote abortion as a method of family planning 
period.
    UNFPA is guided by the Cairo Programme of Action, which is 
quite clear in saying, I quote, ``in no case should abortion be 
promoted as a method of family planning. All one has to do is 
visit UNFPA's Web site to find that,'' UNFPA does not support 
or promote abortion as a method of family planning.
    And directly addressing the issue raised by the chairman, 
the State Department in the last administration, not the Obama 
administration, conducted an investigation of the UNFPA and 
found, ``no evidence, no evidence that UNFPA has knowingly 
supported or participated in the management of a program of 
coercive abortion or involuntary sterilization in the People's 
Republic of China. In fact, the UNFPA opposes coercive family 
planning methods and opposes China's one-child policy.
    I know that for many here, UNFPA's own words and those of 
the State Department on this issue may ring hollow. So would 
ask you to consider the position of the late Henry Hyde, the 
author of the Hyde Amendment, when he was chairman of this 
committee, he passed a very tough U.N. bill through the house, 
which would have ended a great deal of U.S. support for the 
U.N. But in his bill, he decided not to try to defund UNFPA.
    Today we are being asked to permanently end assistance to 
an organization working to prevent cholera among pregnant women 
and people living with HIV/AIDS in Haiti, lowering the maternal 
mortality in Rwanda, protecting women in Kenya fleeing from 
famine and war across the Horn of Africa.
    Rather than lobbing another grenade in our culture wars, 
this committee should be working to strengthen maternal 
mortality prevention efforts, improve the capacity of health 
systems in the developing world, and protect women from rape as 
an instrument of war.
    If you want to prevent abortions, this is what we should be 
doing. And that is exactly what UNFPA does.
    I yield back.
    Chairman Ros-Lehtinen. I thank the gentleman.
    And at this point, I am pleased to recognize the author of 
the measure, the distinguished gentlelady from North Carolina, 
Ms. Ellmers, for 5 minutes.
    Ms. Ellmers. Thank you, Madam Chairman.
    And thank you to all the members who have helped to 
cosponsor this very important bill.
    Madam Chairman, the American people have spoken. On May 
31st, I introduced a bill to prohibit funding to the United 
Nations Population Fund, which was the winning YouCut program 
for that week.
    This bill, H.R. 2059, has now reached an important stage, 
making it to the committee for markup and review. It cuts $50 
million from our Foreign Affairs budget by disallowing the 
Secretary of State to make a contribution to the UNFPA.
    The United National Population Fund, the principle unit 
within the United Nations for global population issues, is the 
world's largest source of population and reproductive health 
programs without doubt. For the last 30 years, however, there 
has been contentious debate about whether the United States 
should financially contribute to the UNFPA because it aids 
China's coercive family planning programs and policies.
    In the 1980s, President Ronald Reagan withheld all U.S. 
contributions to the UNFPA after determining that it was 
supporting and participating in the co-management of China's 
population program. Under the Bush administration, which was 
pointed out by ranking member Berman, there was subject to a 
State Department investigation, and yes, Mr. Berman is correct. 
However, that report also went on to say that China maintained 
coercive elements in its population restrictions in counties 
where UNFPA operates.
    China maintain coercive elements in its population programs 
in law and practice. And Chinese leaders viewed population 
control as a high priority and remained concerned over 
implications of socioeconomic changes. As a result, it was 
recommended that the U.S. should release not more than $34 
million in previously appropriated funds. But that over time, 
it should monitor the allocation of this program and 
subsequently President Bush withheld U.S. funds from UNFPA due 
to concerns that the organization supported or participated in 
what the administration viewed as a program of coercive 
abortion and involuntary sterilization in China.
    The Obama administration and the 111th Congress resumed 
contributions to UNFPA. UNFPA has been widely denounced for its 
involvement in China's one-child policy, which relies on forced 
abortion and sterilization.
    Whether or not you believe the U.S. should be borrowing 
money from China to fund U.N. projects in China, U.S. taxpayers 
should not be forced to fund the program that violates 
provisions in the Kemp-Kasten Amendment, which bans U.S. aid to 
organizations involved in the management of coercive family 
planning.
    Proponents of the program argue that the monies are 
separate. And that we are throwing out good programs with the 
bad. However, in 2008, the State Department issued a report 
that showed clear violations because the UNFPA funnels money to 
the various Chinese agencies that enforce the coercive policy 
and forcibly abort and sterilize as a matter of standard 
operating procedure.
    If the Chinese wish to do such things, they should not 
expect funding from the United States' hard-earned taxpayers. 
The American taxpayer deserves to know where their hard-earned 
money is going. And we must do our part to make people 
accountable.
    H.R. 2059 cuts $50 million from our Foreign Affairs budget 
by disallowing the Secretary of State to contribute to the 
UNFPA and deserves our support.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. I thank the gentlelady from North 
Carolina.
    Before we move to consider amendments, I am pleased to 
recognize members to speak on the underlying bill.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairwoman. Madam 
Chairwoman, as you know, I have great and deep respect for you. 
But I do not have great and deep respect for this particular 
bill and this particular process.
    This is nothing short of a smear campaign against an 
international organization of which we are a member that 
promotes and protects the health of women and their children 
all over the world.
    The State Department report referred to is the 2008 State 
Department report. The 2009 State Department report actually 
determined that there is no violation by UNFPA of the terms of 
Kemp-Kasten. The facts, however, do not matter because we have 
decided to make UNFPA a symbol of our support for a particular 
cause, irrespective of the consequences.
    Some of the loudest voices in this committee who champion 
the human rights of the unborn and, to their credit, had real 
trouble however supporting the same human rights for those who 
were born but happened to have a different sexual orientation. 
I was at this dias that night when we could not get some of the 
loudest champions of this particular cause to embrace that 
particular cause. And from my point of view, a human rights 
violation is a human rights violation, irrespective of status.
    So consistency is not our strong suit here. But picking on 
the UNFPA as an easy target, irrespective of the fact that its 
record is clean, and what it is doing to protect women and 
women's health is essential, without which we are going to 
jeopardize the lives of women in developing countries all over 
the world, and the consequences, very real, does not matter 
because we are making a big political point that will energize 
our base. And the consequences be damned.
    So I am not going to support this bill. And I will have an 
amendment later to try to make sure that at least one aspect of 
women's health is protected, Madam Chairwoman.
    I think this is a sad day for this committee.
    Mr. Berman. Would the gentleman yield?
    Mr. Connolly. I would.
    Mr. Berman. Just because in this general debate, I think 
the point you made deserves some affirmation.
    The author of the bill makes the argument that because 
UNFPA operates in municipalities and counties in China where 
the Chinese Government or the local governments practice 
coercive family planning practices that they are culpable. The 
logic of that escapes me.
    Are the American companies who do business in those 
counties or municipalities of China culpable? Are the American 
tourists who visit that culpable? Without having a nexus 
between what UNFPA does in the specific practices, that 
argument just does not hold water. And I think the committee 
should reject it.
    Do not hold UNFPA responsible for what a sovereign country 
does, as obnoxious as it is, unless you have an allegation of 
advocacy and support that has not yet been presented.
    Mr. Connolly. And reclaiming my time, thank you, Mr. 
Berman, for that insight. I would also point out that if you 
actually look at the record of accomplishments since UNFPA was 
actually founded as a specialized U.N. agency and you look at 
fertility rates and birth rates in the developing countries, 
more and more families have successfully be able to plan and 
space children, infant mortality has dropped, survivability has 
increased.
    You know the family planning efforts, combined with the 
health efforts and initiatives to protect women's health, 
especially pregnant women and new mothers, has actually paid 
off huge dividends in both improving the status of morbidity 
and mortality in the Third World and in making sure that child 
survival rates have significantly and dramatically improved.
    And we are about, in passing this bill, to turn our back on 
all of that progress because of a political issue that I think 
does not hold up under scrutiny, as you suggest, Mr. Berman. 
And with that, I yield back.
    Ms. Ellmers. Oh, may I?
    Mr. Connolly. Yes, yes, of course.
    Ms. Ellmers. Thank you.
    I would like to address--Mr. Connolly, thank you. And to 
ranking member Berman, again, as you have pointed out, that is 
not my assumption. That is actually the 2002 Bush 
administration investigation which--and I will read on here in 
my 19 seconds left--that the $34 million previously 
appropriated funds to the UNFPA until China ends all forms of 
coercive cohesion of law and practice and that no U.S. 
Government funds should be allocated to population programs in 
China and that appropriate resources, possibly from the U.S., 
should be allocated----
    Chairman Ros-Lehtinen. Thank you. Mr. Connolly's time has 
expired.
    Ms. Ellmers. Thank you.
    Chairman Ros-Lehtinen. Mr. Smith is recognized.
    Mr. Smith. Thank you very much, Madam Chair. Madam Chair, I 
rise in strong support of Ms. Ellmer's legislation, thank her 
for offering it, and for the courage to stand up for women in 
China.
    You know it is interesting, 3 days after President Obama 
was sworn in, he directed the administration to resume funding 
for the UNFPA. So there was no careful analysis as to the 
complicity of the UNFPA in the barbaric one-child-per-couple 
policy.
    China's one-child-per-couple policy constitutes massive 
crimes against humanity. The sheer magnitude of the loss of 
human life, the babies as well as the women's lives who have 
been utterly hurt, and I will get to this in a moment, by this 
policy has no parallel in human history. The one-child-per-
couple policy has made brothers and sisters illegal.
    Illegal, imagine that. Any member here who has a sibling or 
who has more than one child, the Government of China tells you 
when and if you can have that child and under what 
circumstances because you do not necessarily get a birth-
allowed certificate just because you want to have a child.
    There are no single moms in China. Let me say that again. 
Single moms are forcibly aborted. I held my 30th hearing on 
human rights abuses in China. And just 2 weeks ago, Chai Ling, 
the great human rights activist who was a Tiananmen Square 
hero, one of the most wanted people by the government, 
testified right here or in 2200 I should say, and talked about 
how she had been forcibly aborted three times, three times 
because she was an unwed mother. And that is part of their 
rules.
    I would ask members to read the regulations. Look at the 
national policy. And most importantly, look at the 2008 report 
that was done by the Department of State. John Negroponte, 
Secretary Negroponte pointed out, and this is, I think, the 
crux of it or the key, UNFPA program, this is his words, all 
UNFPA programming relating to contraceptive and reproductive 
health incorporates and defers to Chinese law and regulation.
    The national law and provincial regulations are the 
framework for China's coercive birth policies. China, the UNFPA 
comports, implements, supports. And if you look over the 30 
years of what the UNFPA has done in China, it has been to 
aggressively defend the one-child-per-couple policy to all 
comers, critics here in the Congress, critics anywhere in the 
world. And now in particularly south to south work, they are 
actually exporting child limitation policies to Africa and 
elsewhere.
    The population and refugee Assistant Secretary, Deputy 
Assistant Secretary, asked a series of 38 questions to the 
UNFPA back in 2008. There is no transparency. We are not told. 
And we are not told what it is that the UNFPA does in China, 
what their teaching materials are made up of. And when asked 
about audits and internal reports, we were told to pack our 
bags. We will not tell you. These are all confidential.
    So we are expected to fork over $50 million of hard-earned 
taxpayer dollars. And they will not even tell us what they are 
doing, what the teaching materials look like. And the bottom 
line is, what is the consequence? Broken women and dead babies.
    I would finally just say to my colleagues that I hope the 
members will read this report. You know we are talking about 
dictatorship. We are talking about a U.N. agency that has aided 
and abetted a one-child-per-couple policy that we would never 
accept in the United States, that no democracy, I do not think, 
would allow to happen.
    And yet because it is a dictatorship and the UNFPA can 
operate under cloak and concealment and not provide 
information, again there is no transparency, women are being 
exploited as never before.
    Five hundred women per day commit suicide in China 
according to the World Health Organization. At my hearing, I 
had three women who had been forcibly aborted. And they told 
their horrific stories about how they were told you are out of 
plan. You do not have permission to carry this child to term. 
Therefore, you will be aborted.
    Again, look at what the UNFPA does in China. They 
completely and totally adhere to Chinese law. They are just 
following orders. When did we hear that before?
    I hope members will join with Ms. Ellmers. Support this 
legislation. Because when Mr. Berman, and I certainly respect 
the ranking member, we have other programs that we could 
provide money to for important life-saving maternal health 
issues and the like----
    Chairman Ros-Lehtinen. Thank you, Mr. Smith.
    Mr. Smith [continuing]. UNFPA has disqualified itself.
    Chairman Ros-Lehtinen. Thank you, Mr. Smith.
    Mr. Deutch of Florida is recognized.
    Mr. Deutch. Thank you, Madam Chair. Madam Chair, saying 
that the UNFPA supports the one-child policy in China does not 
make it so. But I would like to talk about what the UNFPA does 
support, what the UNFPA does to really stand up for women's 
rights and human rights.
    And I would like to talk about two of the areas that often 
are not addressed. The first is the leadership role that this 
body has played in combating female genital mutilation. Female 
genital mutilation comprises all procedures that involve 
partial or total removal of the external female genitalia.
    What does it mean to women? It is a violation of human 
rights, the violation of human rights of girls and women. It 
reflects a deep-rooted inequality between the sexes. It 
constitutes an extreme form of discrimination against women. It 
is nearly always carried out on minors. It is a violation of 
the rights of children.
    It also violates a person's right to health security and 
physical integrity, the right to be free from torture, the 
right to be free from cruel, inhuman, degrading treatment, and 
the right to life when the procedure results, as it often does, 
in death.
    There is a lot of debate that is going to take place here 
about China's one-child policy. This organization does not 
support that. My colleagues have made that clear. And the 
debate, I suppose, will continue.
    But this organization has taken a leadership role in 
stopping female genital mutilation. Between 100 and 140 million 
women worldwide have undergone this procedure. Three million 
girls each year face the prospects of female genital 
mutilation.
    Because of the work that this body does that this bill 
wishes to defund, because of the work that they do, 6,000 
communities through Africa and the Middle East have abandoned 
the practice. We cannot turn our back on this important work 
that stands up for women's rights and helps protect women's 
lives.
    Madam Chair, that is not the only area that unfortunately 
is often ignored, the work that the UNFPA does. I would also 
point out that this organization, this body, is likewise a 
leader internationally in stopping obstetric fistula. Fistula 
is another serious problem in the poorest countries in the 
world.
    Again, we do not often talk about that because we get 
carried away in other debates. But the fact is where mothers 
give birth without any medical help, in many cases if a woman's 
labor becomes obstructed, she will endure days of painful, 
prolonged labor. Her baby is unlikely to survive. If the woman 
survives, her body is literally broken by childbirth, 
uncontrollably leaking bodily waste, these women are shunned by 
their families and communities. So many of them are young 
girls.
    There are a lot of people in the nonprofit world who are 
focused on preventing fistula, which can be prevented. But it 
is this body that this bill seeks to defund which has taken a 
leadership role.
    There is going to be a lot of heated debate over the course 
of this hearing, Madam Chair. And I appreciate it. But too 
often we lose sight of a lot of the good work that is done 
every single day by organizations that some choose to demonize. 
In this case, these two issues, stopping fistula, stopping 
female genital mutilation, are vitally important to preserving 
the rights of women and children around the world. This body, 
the UNFPA, has taken a leadership role. And for that reason, 
needs our continued support.
    I oppose this legislation, Madam Chair. And I appreciate 
very much the opportunity to focus on these two issues. And I 
yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Ms. Schmidt is recognized for 5 minutes.
    Ms. Schmidt. Thank you, Madam Chair.
    You know I think it is our responsibility to ensure that 
the money that is spent from our hard-working taxpayers is done 
in accordance with the laws. The UNFPA refuses to supply the 
United States with detailed information regarding its programs 
and activities in China.
    We have a responsibility to know how our money is being 
spent by organizations here and abroad. China's one-child 
policy breeds a culture of forced abortions and involuntary 
sterilization in addition to parents aborting their daughters 
in hopes that their sole child will be a boy. It is brutal and 
coercive and should in no way be assisted or enabled by U.S. 
tax dollars. This is the worst cruelty that can be imposed upon 
a woman.
    By essentially ignoring the Kemp-Kasten bill, what sort of 
message are we sending? By funding UNFPA, which has a history 
of giving to organizations like Marie Stopes, an organization 
that partners with national population and family planning 
commissions of China, a message is sent that the U.S. does not 
take coercive abortion and other human rights violations 
seriously. That is not a message I would ever want to send to 
our hard-working taxpayers.
    Defunding UNFPA was a YouCut winner voted on by the America 
public. The American people understand what the current budget 
situation is here and sent a message to us, their elected 
officials, to spend their tax dollars more wisely, cautiously, 
and effectively.
    According to a report prepared by the Norwegian Government, 
the UNFPA has a reserve of over $480 million in 2010, which is 
approximately the same amount as their regular income of 2009. 
In our current budget situation, we have no business supporting 
organizations that have the necessary cash on their own.
    It is argued that this money is not going to abortions, 
coerced or otherwise. But we know that money is fungible. And 
when we cannot get an accurate accounting from the Chinese 
Government as to how that money is being used, then that money 
should be taken away.
    There is an argument that the UNFPA does a lot of good 
things. And I agree that it does. But those can be paid for 
separately.
    And finally, we can take our money and use it elsewhere for 
other programs within the U.N. and other places. And if this 
program is so important, then let us let other member countries 
stand up and fill this gap.
    But, Madam Chair, it is imperative that our hard-earned 
taxpayer dollars from the hard-working Americans, are used 
appropriately, efficiently, and responsibly.
    We are at a place now where we have very serious concerns 
about how China is using this money. We have no accountability 
of how China is using this money. And we need to use this money 
in a better way to help people not just in the United States, 
but around the world, because all life is precious, unborn, 
born, poor, elderly. And it is our responsibility as a moral 
nation under God to respect life in all cases and all 
instances.
    I yield back my time.
    Chairman Ros-Lehtinen. I thank the gentlelady.
    Mr. Payne is recognized for 5 minutes.
    Mr. Payne. Thank you very much.
    And let me express my strong opposition to this amendment. 
I would like to certainly speak in opposition to this 
legislation, which would eliminate funding for the United 
Nations Population Fund.
    Last week my office hosted a meeting with a group of 
women's health leaders. They worked in health services from 
Ghana, Ethiopia, Kenya, Malawi, and Tanzania. And they were 
participating in a 2-week conference hosted by the Center for 
Development and Population Activities.
    The women told devastating stories about the impact of 
inadequate family planning on their lives and the lives of poor 
and rural communities in Africa. They spoke of the devastating 
impact of multiple unwanted pregnancies on the health and 
economic livelihoods of the mothers. They spoke of the trauma 
of unsafe, self-induced abortions, the pain and stigma of 
obstetric fistulas, the terror of gender-based violence. They 
talked about overstretched, overburdened, rundown health system 
that cannot meet the basic material health needs of their 
communities.
    And at the end of the meeting, they asked us to share their 
message today to those that wish to end family planning 
programs in Africa and the developing world. They want you to 
know that women of Africa want healthy babies. They want the 
ability to space their births. They desperately need family 
planning commodities in rural and poor communities.
    Women do not often have a real shot at improving the 
quality of life for themselves. As a matter of fact, since the 
program has been in existence, infant mortality is down. The 
life expectancy in Africa is increasing because of the fact 
that there are spaced children. And that it is not felt that 
they need to have eight and ten children in order to ensure 
their future.
    And so they asked us to increase its commitment to 
lifesaving family planning in the U.S. And to work for maternal 
health and child survival programs.
    So today I ask that we take their point of view into 
consideration as we debate this issue. We know that our 
constituents also have a point of view on our foreign aid 
spending. And we owe it to them to be honest about where their 
tax dollars are going.
    We have always heard about this overburdening of the 
taxpayers of America. But let me tell you about the truth of 
last year's U.S. contribution, $40 million, about one-hundredth 
of 1 percent of our budget. Now we know that one-hundredth of 1 
percent is very important because--and twice that is two-
hundredths of 1 percent of the budget.
    However, I think when we talk about this cost to American 
taxpayers, we are really kind of overstating the situation. 
These programs help women to develop healthy babies, provide 
post-rape care and emergency obstetric care in post-conflict 
and disaster situations, help to the practice of female genital 
mutilation, prevent obstetric fistula, and prevent unsafe 
abortions.
    The truth is that the UNFPA does not provide assistance for 
abortion services or abortion-related equipment and supplies as 
a method of family planning. I will say again UNFPA's work 
reduces the need for abortion and the whole question of 
voluntary planning.
    I would also like to mention that we do hear so much about 
the China policy, which I totally oppose. One child, you know 
it is illegal to have a brother or a sister, but I always see 
us lavish with the Chamber of Commerce, the National 
Association of Manufacturers. I never hear the business people 
who talk about this coercive, one-child policy, people that 
support many folks on the other side.
    So I see the inconsistency. Why don't we tell our business 
community why don't you raise this issue as we raise it here?
    And I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you, Mr. Payne.
    Ms. Buerkle is recognized for 5 minutes.
    Ms. Buerkle. Thank you, Madam Chairman. I rise in strong 
support of H.R. 2059.
    Our country has an obligation to spend our taxpayers' 
dollars wisely. And I would say first of all, if this is such a 
good program and they are not involved in China's coercive 
abortion policy, then they should just supply the detailed 
information that they have been asked for by the State 
Department. Their failure to provide what we have asked for is 
not transparency. And certainly leads one to believe that they 
are not being honest and forthright with how they are spending 
the money.
    I think even more than that, by ignoring Kemp-Kasten, the 
U.S. Government sends a message to oppressive governments, that 
coercive abortion and other human right violations are not a 
big deal. We not only give a green light to abusive governments 
to continue to abuse their people without fear of repercussions 
but we also signal that we will fund organizations and support 
them and subsidize their programs. That is the wrong message to 
be sending. Those are not principles consistent with the United 
States of America.
    I yield back my time.
    Mr. Smith. Would my friend yield?
    Ms. Buerkle. Yes.
    Mr. Smith. I thank my good friend for yielding.
    And just a quick response to my good friend from New 
Jersey. You know I actually raised the issue of China human 
rights abuses and coercive population control at the New Jersey 
Chamber of Commerce annual event here in Washington. And I 
bring it up all the time.
    And I also show the nexus with what population control, 
particularly the missing girls, 40-50 million missing girls in 
China today, if ever there was a crime of gender, it is sex 
selection abortion where a girl is targeted because she is a 
girl and then aborted. And in China that is so rampant.
    And so I have raised it at the Chamber of Commerce as I 
said to my friend.
    But Ms. Buerkle brings up a very, very important point 
about lack of transparency. I mention those 48 questions--let 
us see--38 questions that were posed by the Population Refugee 
Migration Bureau in 2008. And I would ask members to read those 
answers.
    When asked about what Marie Stopes International, the 
implementing partner for UNFPA in the health area was actually 
doing, UNFPA responded these are internal documents. And as 
such are for internal use only. Audit reports are internal 
management tools and are of a confidential nature.
    So we do not know what they are doing. They are absolutely 
non-transparent.
    And yet they want 50 million U.S. taxpayer dollars to carry 
on what clearly--and let me also say if my friend will continue 
yielding--look at what UNFPA spokespersons, including the 
executive director, Dr. Sadik, former exec director, said.
    He praised the one-child-per-couple policy. In 2002, Dr. 
Sadik got an award from the National Family Planning 
organization in China, the state-run organization, for their 
work.
    I met with Peng Peiyun, the woman who ran the program for 
years on one of several trips to China protesting a myriad of 
human rights abuses in that country. She kept saying over and 
over and over again in that conversation the UNFPA is here. 
They do not see any coercion. They support what we are doing. 
Not only do they support it, they are trying to export it to 
other countries under the guise of child limitation policies. 
So this is a very serious problem.
    I also say to my friends, yes, UNFPA may do some other 
things. But so do other multilateral organizations. So does 
USAID. Our dollars ought to go where we are not in any way 
complicit with these crimes against women--and that is not a 
smear, I say to my friend--these are crimes against women and 
children.
    Let us not forget at the Nuremberg War Crimes Tribunal, 
forced abortion was called rightfully so, a crime against 
women. And a crime against humanity. It is no less a crime 
today.
    And in scope, in the vastness of its implementation in 
China, through its laws and regulations, which the UNFPA 
absolutely adheres to, that was the finding by the State 
Department in 2008--there has been no change. They have carried 
the water of the Chinese Government. They live within those 
parameters of those laws, one child, one child only. And yet 
when we ask questions, they say it is confidential. We cannot 
tell you what we are doing.
    I do believe that on behalf of the Chinese women and all 
those children who have been slaughtered and the Chinese women 
who have been so cruelly exploited, that the leaders of the 
UNFPA ought to be at The Hague for their complicity in these 
crimes. These are gross human rights abuses.
    Mr. Connolly. Would my colleague yield for a question?
    Chairman Ros-Lehtinen. Ms. Buerkle's time.
    Ms. Buerkle. Yes.
    Chairman Ros-Lehtinen. And it is 5 seconds.
    Mr. Connolly. I wonder if my friend from New Jersey would 
favor disinvestment of all U.S. businesses in China with the 
same line?
    Chairman Ros-Lehtinen. Thank you. No, Ms. Buerkle's time 
has expired.
    Mr. Cicilline is recognized for 5 minutes.
    Mr. Cicilline. Thank you, Madam Chairman.
    Mr. Payne. Mr. Cicilline, could I have 3 seconds?
    Mr. Cicilline. Sure.
    Mr. Payne. All right. I would just like to tell my 
colleague from New Jersey that you are the exception to the 
rule. I have to agree that you are consistent with the Chamber 
of Commerce. And so I will want to have the record straight 
that I was not criticizing you per se because I have heard you 
criticize the Chamber.
    I yield back.
    Mr. Cicilline. Thank you.
    Madam Chairman, I rise in strong opposition to this bill. 
Certainly everyone is entitled to their own opinion and their 
own beliefs. And to have strong opinions and beliefs.
    But the facts matter, particularly when we are dealing with 
issues of life and death. And UNFPA does not support the one-
child policy of China. UNFPA does not provide abortion or 
abortion-related services. Those are the facts. And that 
matters.
    In fact, what makes those assertions particularly 
disturbing is that UNFPA does just the opposite. One of the 
basic tenets of UNFPA is to promote voluntary family planning 
and oppose all forms of coercion, targets, or quotas. So that 
is not the policy that UNFPA, the one-child rule is not the 
policy obviously that they embrace. And, in fact, the governing 
principles are just the opposite.
    The United States was instrumental in the creation of UNFPA 
in 1969. And today their work reflects our commitment as a 
country to saving lives, to slowing the spread of HIV and AIDS 
and to ending horrific practices like female genital 
mutilation. And most importantly, to promote the health of 
women and children in 151 countries around the world.
    And it is based on our long-standing belief that women 
deserve access to quality maternal and reproductive healthcare. 
And what has UNFPA done? They have, in a single decade, 
contributed significantly to reductions in maternal death in 
countries all over the world. Nearly every day, 1,000 women die 
in pregnancy. And almost all of those are preventable if they 
have access to quality reproductive healthcare.
    And so this bill today would eliminate those programs. It 
would eliminate the possibility to provide the kind of care 
that has saved so many lives, that has done so much to end this 
hideous practice of female genital mutilation, has done so much 
to deal with injuries of obstetric fistula, and other 
debilitating diseases.
    And so while I know there has been a lot of discussion 
about the one-child rule, and obviously that is something which 
is an anathema to everything that we believe in as a country, 
that is not what this bill is about. This bill ends all funding 
for UNFPA, for all of the programs that are helping to reduce 
deaths during pregnancies and childbirth, in helping to deal 
with disease and the transmission of disease, and for some of 
the most vulnerable populations all over the world.
    That is what the bill is about. There is nothing in here 
about China's one-child policy. In fact, it will end all of the 
incredibly successful and hard work of UNFPA.
    So the consequences of passing this bill and the impact it 
will have on children and women all across the globe should 
cause everyone to reject this piece of legislation. There is no 
question that if this bill passes, it will surely result in 
harm to women and children by ending important and life-saving 
access to reproductive healthcare and family planning. We 
should not do that.
    I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you.
    And I would like all members to give me some hand signals 
if you wish to be recognized.
    Mr. Poe is recognized for 5 minutes.
    Mr. Poe. Thank you, Madam Chair.
    I see this legislation as a situation where the UNFPA does 
not want to be transparent about their records. Why is that? 
They have something to hide. Maybe something is taking place 
that we, as Americans, do not agree with.
    There are other reasons why this legislation, I think, 
should pass. And specifically one reason is China's one-child 
policy, which I think is an awful disgrace to the nation of 
China and their government.
    I will yield time to Ms. Ellmers.
    Ms. Ellmers. Thank you, Mr. Poe.
    And I would just like to follow up with some of the 
concerns that have been raised. And I think the overwhelming 
piece or point, I agree, facts do matter, to Mr. Cicilline. 
Facts do matter. Unfortunately, that is exactly what we do not 
have.
    The UNFPA does not provide us with facts. And Ranking 
Member Berman, you had pointed out that there are falsehoods 
and that there is misinformation about how this money is spent. 
I could not agree more. And that is exactly the reason that we 
have put this bill forward because when the American people 
were asked what is the situation, what would you say about 
cutting back on spending, this was it.
    Why? Because of the practices it supports, because of the 
lack of facts, because of the lack of information.
    You know we have also heard about the good work that UNFPA 
participates in. Things like working against female mutilation. 
Well, my question to you is enforced abortion, mutilation is 
part of that. What about that point? What about some of the 
other organizations that help to prevent, as has been pointed 
out, USAID has programs against the fistula preventions.
    These are all things that I think the American people are 
aware of. And they understand.
    You know in the past--and according to a 2008 report, when 
funding like this has been withheld, the European Union has 
come forward. In the Netherlands, Sweden, Norway, Denmark, 
Spain, Luxembourg, Japan, UK have all come forward to help in 
these efforts.
    Why is it on the burden of the hard-working American 
taxpayer that they continue to fund a program that we know so 
little about, that we know participates in the Chinese one-
child policy. They enforce this.
    Now whether or not the UNFPA says that they agree with 
that, money is fungible. The money gets put where it needs to 
go in these practices.
    Now this is the issue. Regardless of where you stand on 
these issues, I am a woman. I am a nurse. There is nothing I 
believe in more than women's health.
    The fact of the matter is the American people are forced to 
pay for a practice in other countries that we know nothing 
about. And that is the issue here. The American people have 
spoken about this. They have told us that they want an end to 
this wasteful spending, that they are participating in acts 
which are horrific.
    And I applaud the concerns that have been brought forward 
in this debate. I understand that there are some good things 
that get done. But by far, the inhumanitarian efforts that are 
put forward in things like this that the American taxpayers are 
being forced to pay for outweigh any of the minimal benefits 
that we have seen.
    Again, I say that because there are other organizations 
that help in these efforts. And the American taxpayer should 
not have to be forced to pay for this.
    And I yield back my time.
    Mr. Cicilline. Would the gentlelady yield for a question?
    Chairman Ros-Lehtinen. Is it Mr. Poe's time? Mr. Poe.
    Mr. Poe. Yes, I'll yield.
    Mr. Cicilline. Thank you. I would ask the sponsor, she just 
indicated there was a lot of good things or there are some good 
things that UNFPA does. Would you acknowledge then that your 
bill would prevent those good things from continuing? Because 
it eliminates funding and----
    Mr. Poe. I yield to Ms. Ellmers.
    Ms. Ellmers. Well, unfortunately, that is correct. And the 
reason that that is so significant is because of the lack of 
information that we have been able to obtain. Now again, I 
agree. That is unfortunate. However, there are other 
organizations that come forward in this aid. This is not the 
only form of funding for these needed agenda items. Thank you.
    Chairman Ros-Lehtinen. Mr. Poe?
    Mr. Poe. I yield to Ms. Schmidt.
    Chairman Ros-Lehtinen. Ms. Schmidt is recognized for 10 
seconds.
    Ms. Schmidt. There is some money in the account that could 
pay for those programs right now and it doesn't preclude other 
countries from funding this agency. So in answer to your 
question, yes, there are other ways to pay for those good 
programs.
    Chairman Ros-Lehtinen. Mr. Poe's time is----
    Mr. Poe. Expired.
    Chairman Ros-Lehtinen. Thank you, Mr. Poe. Mr. Engel is 
recognized for 5 minutes.
    Mr. Engel. Thank you, Madam Chair, I appreciate it. Look, 
everyone who is speaking this morning is heartfelt and feels 
very strongly about it. I am what you would call pro-choice, 
but I do understand my friends on the other side of the aisle. 
Many who have spoken this morning are good, personal friends of 
mine. And I understand the heartfelt feelings that those on the 
other side of the aisle have expressed regarding abortion and 
regarding all of the things they have said.
    I oppose the bill because I just don't think--this to me is 
like using a meat axe to get at everything because some are 
annoyed at some of the programs that have. I mean some of us 
are also annoyed at the United Nations, in general. I think 
it's time, frankly, to reassess a lot of U.S. contributions to 
the United Nations because the United Nations has not been 
balanced and fair in a number of instances, certainly in the 
Middle East and in the Israeli-Palestinian question and other 
questions as well. Those of us who have fought against 
dictatorships, whether it's in Cuba or other places, we get 
frustrated with the United Nations because they seem to tilt on 
the side of dictators and also it irks me, I'm talking about 
me, that the United States pays the yeoman's share of 
contributions to the U.N. and yet the countries of the U.N. 
kind of spit in our face. And it's kind of annoying.
    So some of that I think is inherent in this argument. And 
of course, the major thing is the whole abortion issue. I think 
UNFPA does do good work. I think access to contraception, my 
personal feeling, is important for women, particularly in the 
Third World, and women's healthcare is critical for individual 
health and family wellbeing and I just think that's important.
    So the UNFPA promoting voluntary family planning, it 
doesn't force anyone to do family planning, but it's voluntary 
family planning and does oppose all forms of coercion. I think 
it's a program that should be continued. It doesn't mean that 
we should keep writing blank checks. It doesn't mean that we 
should not monitor it. I think some of the concerns that have 
been voiced on the other side are legitimate concerns and I 
think we need to monitor things because I don't think that the 
United States can keep pouring money and not have any kind of 
oversight. I don't think that's right either. But I think to 
cut off the funding to UNFPA again is like taking a meat 
cleaver when all we need to do is ask questions and do it in a 
much more general way. So I oppose the bill, but I do hope we 
can keep the dialogue going. And I yield back, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Engel. The 
Chair will recognize herself just to make a note. I know that 
we have some members who would like to speak, but I know Mr. 
Connolly had indicated that he has an amendment. And I think 
many of the arguments that perhaps our colleagues will be 
making could be applicable to argue on the Connolly amendment. 
Unless there's an overriding need to speak at this time, 
perhaps we could move to the amendment process. If Mr. Connolly 
offers his amendment, I don't know what it is, but I'm sure our 
arguments will be applicable to that as well. If that is all 
right, then we will have several amendments. So if the clerk 
will--would any member like to be recognized in order to offer 
an amendment? Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. And then Ms. Bass and Mr. Cicilline.
    Mr. Connolly. I have an amendment at the desk.
    Chairman Ros-Lehtinen. The clerk will read the amendment.
    Ms. Carroll. I do not have the amendment.
    Amendment to H.R. 2059 offered by Mr. Connolly of Virginia. 
In section 1 insert ``and accept as provided in section 2'' 
before ``the Secretary of State''. Add at the end of the 
following: Section 2. Exception. Section 1 shall not apply in 
the case of contributions to UNFPA to carry out activities to 
prevent and treat cases of obstetric fistula.
    [The amendment offered by Mr. Connolly follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Connolly. Madam Chairman?
    Chairman Ros-Lehtinen. Mr. Connolly is recognized. Well, 
the Chair reserves a point of order and recognizes the author 
for 5 minutes to explain his amendment.
    Mr. Connolly. I thank the chair. And given what the author 
of the defunding of UNFPA indicated in terms of her continuing 
commitment to women's health, and then her intention wasn't to 
deny the legitimate activities of UNFPA with respect to that 
health, I would hope she could support this amendment.
    This amendment addresses a very difficult subject, 
especially in developing countries among women called obstetric 
fistula. For those who haven't heard of the condition of 
fistula is frankly a hole. And obstetric fistula is a hole 
between the digestive tract and the reproductive tract. It is 
life endangering. It can lead to the natural abortion of a 
fetus and it can lead to ultimately the illness, sickness, and 
death of the carrying mother.
    If this was a rare occurrence, I suppose some might be able 
to turn their head and ignore it. But it's not rare. It's 
estimated that more than 2 million young women live with 
untreated obstetric fistula in Asia and sub-Saharan Africa 
alone. Each year, 50,000 to 100,000 additional women are 
affected by obstetric fistula. How does it happen? In general, 
it happens because of prolonged labor without prompt medical 
intervention, usually a caesarian section. The risks of damage 
are heightened by pregnancy at too young an age, by harmful 
practices such as female genital mutilation and by the lack of 
timely access to obstetric care.
    So fistulas are actually preventable. They can be prevented 
by expanding access to family planning, skilled birth 
attendance, and emergency obstetric care facilities. The risk 
can be reduced by things like improving girls' nutrition and 
conducting educational campaigns. And when you prevent 
obstetric fistula, you also reduce infant mortality, something 
I know Mr. Smith and others absolutely share a concern about 
since most cases of fistula end up with a stillborn baby.
    Now only is obstetric fistula preventable, Madam Chairman, 
it's treatable. Fistula can be completely repaired up to 90 
percent of the time if survivors have access to a trained 
surgeon at a hospital providing fistula repair. The average 
cost of such treatment and post-operative care is about $300 in 
these countries. Sadly, most women with the condition do not 
know that treatment is available or they can't afford it.
    UNFPA is one of the world's leaders in addressing this 
problem. In 2003, UNFPA and its partners launched a global 
campaign to end fistula with the goal of making obstetric 
fistula as rare in developing countries as it is here in the 
industrialized world.
    My amendment is simple. If the money is used to prevent or 
treat obstetric fistula, we would provide that exemption for 
the overall ban on funding of UNFPA and I would yield to the 
distinguished ranking member.
    Mr. Berman. I could not have said it better myself. Between 
you and Mr. Deutch, you've made a compelling case.
    Mr. Connolly. I thank the gentleman and yield back, Madam 
Chairman.
    Chairman Ros-Lehtinen. Thank you. Thank you, sir. The Chair 
yields herself 5 minutes. And certainly the services in Mr. 
Connolly's amendment, they are noble goals, but the amendment 
presumes that whatever good activities the UNFPA conducts will 
cease unless it receives our U.S. taxpayer dollars. And that's 
simply not true. And I'm sure that we will have a series of 
amendments, not just on fistula, but there will be a series on 
other services that UNFPA provides, and they will use these 
services as cover to continue their practice.
    Given recent reports that UNFPA may be sitting on $500 
million in unspent reserves, it appears unlikely that they will 
run out of this money and probably will be able to resume their 
activities with whatever money they have still to spend.
    And further, UNFPA's noble goals are tainted by the fact 
that they are listed in this amendment and in many amendments 
to come for no other reason than to justify funding an 
organization that supports and participates in the management 
of China's unthinkable, brutal, one-child policy, a policy in 
which women are snatched out of their homes, forced into a 
clinic, and held down while their baby is killed and extracted 
from their bodies, all while UNFPA likely provides financial 
support to the agency responsible for these terrible abuses. 
Instead of boldly speaking out against the one-child policy at 
every opportunity, UNFPA gives cover to the Chinese Government. 
Regardless of what UNFPA claims, UNFPA does not enforce, 
monitor, or certify that UNFPA funds are not going to forced 
sterilization and coerced abortion. UNFPA does not hold 
recipient governments accountable and it refuses to share their 
records.
    Remember, fistulas on one continent simply cannot offset 
participation in the most draconian population control program 
on the globe. Fortunately, USAID already has a program for 
fistula prevention and repair, and the millions of dollars 
currently going to UNFPA could more transparently and 
effectively be directed through our bilateral assistance 
programs.
    One day fistula will be eradicated worldwide and when that 
day comes, I hope that we will be proud that the scourge of 
fistula was eliminated without using the suffering of women in 
Africa and other parts of the world to justify and mask the 
unthinkable suffering of women who are subjected to forced 
abortions in China.
    I'd like to yield my remaining time and then he will get 
his own time to Mr. Smith.
    Mr. Smith. Thank you very much, Madam Chair. I rise in 
opposition to the amendment and associate myself with the 
remarks of the gentlelady, the chair of the committee.
    In the late 1990s, I began an effort after being made aware 
of obstetric fistula by Dr. Wali from Modern Care to get a 
program that would combat fistula. I asked the Clinton 
administration, I asked the Bush administration. I finally got 
legislation passed as an amendment in my bill, H.R. 2601 that 
established a fistula program. The gentlelady from Florida was 
the chief cosponsor. It passed the House, failed in the Senate.
    I then talked to Kent Hill who was then the head of Health 
for USAID and said we've passed a program to combat obstetric 
fistula, will you do it administratively? You have the 
authority, just do it. He did it.
    We now have a USAID fistula program that has spent over $70 
million. It has repaired 20,000 women, mostly in Africa, and it 
has a preventive capacity to it as well as repair capacity. And 
30 USAID-supported fistula repair centers operate in 11 
countries. We have built a capacity. UNFPA does some things on 
fistula, does some things on other things that some might think 
are important, but frankly, the massive crime of forced 
abortion should not be overlooked and somehow put under the 
table because somehow they're doing something else somewhere 
else.
    We have a fistula program. I started it. And I believe 
deeply along with the gentlelady from Florida who was the co-
author of that legislation, that that's the way to go. If UNFPA 
was stealing money, would anybody here on either side of the 
aisle say oh, let's look askance with regards to their huge 
thefts and we would find another NGO, another regional body to 
give our money to. In this case, we're doing it on fistula.
    Chairman Ros-Lehtinen. Thank you. Mr. Fortenberry is 
recognized for 5 minutes.
    Mr. Fortenberry. Well, Madam Chair, I simply want to concur 
with what you said. You most capably and aptly and frankly 
beautifully laid out the case that we do not have to be 
complicit with this agency as they are complicit in China's 
one-child barbaric policy, but at the same time we have a 
certain level of responsibility to the international community. 
And as Mr. Smith just stated, we can use our own funds and 
direct them in a way toward the essential and important goal of 
helping the victims of this fistula difficulty as well as other 
programs out there that will again be targeted to the poorest 
and marginalized, particularly women who are hurting and in 
need. But to simply say that the conduit has to be the United 
Nations Population Fund I think is a point of disagreement 
here. There are many people who would be deeply troubled after 
learning about this hearing as to what's been said and I think 
it's appropriate to remove taxpayer dollars from that 
organization, but continue to look for creative ways, as Mr. 
Smith has done through his extraordinary leadership to help the 
world's most vulnerable. With that, I'll yield.
    Chairman Ros-Lehtinen. Thank you, sir. Mr. Payne is 
recognized for 5 minutes.
    Oh, I'm sorry, thank you. Do any of the members seek 
recognition on the Connolly amendment? And if not, the Chair 
withdraws the point of order and, hearing no further requests 
for recognition, the question occurs on the Connolly amendment 
that is before you.
    All those in favor say aye.
    [Ayes.]
    All opposed, no.
    [Noes.]
    Chairman Ros-Lehtinen. In the opinion of the Chair, the 
noes have it and the amendment is not agreed to.
    Mr. Connolly. Madam Chairman?
    Chairman Ros-Lehtinen. Yes, Mr. Connolly?
    Mr. Connolly. Respectfully, I would ask for a recorded vote 
on that.
    Chairman Ros-Lehtinen. A recorded vote has been requested 
and the clerk will call the roll.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no. Mr. Smith.
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no. Mr. Burton.
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no. Mr. Gallegly. Mr. 
Rohrabacher. Mr. Manzullo. Mr. Royce. Mr. Chabot.
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no. Mr. Paul. Mr. Pence.
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no. Mr. Wilson. Mr. Mack.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no. Mr. Fortenberry.
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no. Mr. McCaul.
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no. Mr. Poe. Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no. Ms. Schmidt.
    Ms. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no. Mr. Johnson. Mr. Rivera.
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no. Mr. Kelly.
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no. Mr. Griffin. Mr. Marino.
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no. Mr. Duncan. Ms. Buerkle.
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no. Ms. Ellmers.
    Ms. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no. Mr. Turner.
    Mr. Turner. No.
    Ms. Carroll. Mr. Turner votes no. Mr. Berman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye. Mr. Ackerman. Mr. 
Faleomavaega. Mr. Payne.
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye. Mr. Engel.
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye. Mr. Meeks. Mr. Carnahan.
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye. Mr. Sires. Mr. 
Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Ms. Carroll. Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye. Mr. Cardoza. Mr. 
Chandler.
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye. Mr. Higgins. Ms. 
Schwartz.
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no. I haven't finished the 
roll yet.
    Chairman Ros-Lehtinen. If we will allow the clerk to finish 
the roll and then we will ask if all members have been 
recorded.
    Ms. Carroll. Ms. Schwartz. Mr. Murphy. Ms. Wilson. Ms. 
Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye. Mr. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye. Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Ms. Carroll. Mr. Manzullo, you are not recorded.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no. Mr. Griffin.
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no. Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no. Mr. Royce, you are 
recorded as voting no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Ms. Carroll. Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye. Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Chairman Ros-Lehtinen. The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 12 ayes 
and 21 noes.
    Chairman Ros-Lehtinen. The noes have it and the question is 
not agreed to. Are there further amendments on this bill? Ms. 
Bass has an amendment. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2059 offered by Ms. Bass. In 
section 1 insert ``and accept as provided in section 2'' before 
``the Secretary of State''. Add at the end of the following: 
Section 2. Exception. Section 1 shall not apply in the case of 
contributions to UNFPA to carry out activities to reestablish 
reproductive and maternal health services in areas where 
medical infrastructure and such services have been destroyed by 
natural disasters.
    [The amendment offered by Ms. Bass follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Ms. Bass is recognized to explain 
her amendment.
    Ms. Bass. Madam Chair, this amendment will allow the United 
States to continue working with the Population Fund in disaster 
areas to help reestablish maternal health services. The 
amendment would continue funding again for critical health 
services after a natural disaster. For example, after the 
tsumani in '05, the Population Fund moved rapidly to protect 
maternal and reproductive health and to ensure the security, 
hygiene and dignity of women and girls throughout Indonesia, 
Sri Lanka and Thailand. In Indonesia, for example, the Fund 
continues to provide hygiene kits, medicines, and medical 
equipment.
    In the aftermath of the Haiti earthquake in 2010, the Fund 
worked closely with clinics on the ground to assist pregnant 
women who were struggling to stay alive and deliver healthy 
babies.
    My amendment aims to protect women's reproductive health 
after a natural disaster strikes. I urge my colleagues to 
support my amendment. I yield the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much for your 
brevity, Ms. Bass. It is so greatly appreciated. Do other 
members seek recognition on this amendment? Mr. Chabot is 
recognized for 5 minutes.
    Mr. Chabot. Thank you, Madam Chair. I want to thank the 
gentlelady, first of all, from North Carolina, Ms. Ellmers for 
offering her excellent legislation. I can't think of a better 
way to save $50 million in American taxpayer dollars than by 
prohibiting funding the United Nations Population Fund. As my 
colleagues know, the U.S. for quite some time withheld funding 
the UNFPA, a leading proponent of China's unconscionable one-
child policy. That changed in 2009 when President Obama 
reinstated funding to the UNFPA. Since then, the taxpayers of 
the United States, a majority of whom oppose taxpayer-funded 
abortion have unwillingly allocated $145 million for this 
abusive policy.
    I would like to again thank my colleague from North 
Carolina, Ms. Ellmers, for offering her thoughtful legislation. 
We talk a lot about human rights around here. This legislation 
is all about human rights. The fundamental right to life, I 
wholeheartedly support it. I urge my colleagues to do the same. 
And I would ask the gentlelady from North Carolina, would she 
like to speak to this amendment or her amendment specifically?
    Ms. Ellmers. Yes. And thank you, Mr. Chabot. There again, 
wonderful intention to continue funding especially in those 
countries that are faced with those natural disasters as our 
own country has been faced with, but there again, we are faced 
with a situation where all too often, the taxpayer dollars are 
not being spent wisely because we don't know what is being--
what is taking place. And although again, as the chairman has 
pointed out, there are many situations which I think we all 
support on a humanitarian level.
    The fact that there is such lack of transparency in this 
program that why should the American people continue to pay for 
it, especially when there are other sources of funding that are 
available. And as the chairman has pointed out, $500 million of 
surplus that can be used for these actually needed efforts.
    I agree. There are many--it tugs at our heartstrings 
whenever we hear these issues, but the overall riding issue is 
the abuses that are taking place. And this is what the American 
people are calling out to us as elected officials to take care 
of and to recognize. And to stop the continued funding of their 
taxpayer funds. So thank you.
    Again, to the gentlelady, I am in disagreement with your 
amendment, although I know your intentions are more than 
honorable. I yield back.
    Mr. Chabot. Reclaiming my time. And having had the 
opportunity to interact with the gentlelady from California, 
the former Speaker of the House, I would agree that her 
intentions are honorable. Nonetheless, I have to oppose the 
amendment and I yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Chabot. I 
would like to yield 5 minutes to Mr. Berman who will speak in 
favor of the amendment and then I will recognize him for 
unanimous consent request to make it easier for our members in 
terms of voting.
    Mr. Berman is recognized.
    Mr. Berman. Thank you very much, Madam Chairman. And I 
support this amendment very strongly. But I'd like to engage 
Ms. Ellmers, the sponsor of the legislation. And here, I'm 
quite serious in trying to understand particularly given your 
last comments, what our differences are.
    I think there's a general consensus that China and areas of 
China forced abortion, coercive population control, one-child 
policy are going on and are odious to us and constitute 
violations of fundamental human rights.
    You've acknowledged that UNFPA does many good things that 
have nothing to do with that. But there's been a general 
allegation that the UNFPA supports those practices as opposed 
to the services we think of. I've not heard--I've heard vivid 
descriptions of the outrage of China's practices, but I haven't 
heard UNFPA. But you just referenced that part of this problem 
isn't so much we have specific evidence of what UNFPA has done 
as there is a lack of transparency, so if they're operating in 
a country where these odious things are going on, we should cut 
off the funding.
    I'm wondering if you could share with us what is the 
information that you seek that you're not able to get. What is 
the--give me some detail the problem with the transparency. I 
say this honestly because I think----
    Mr. Engel. Would my friend yield?
    Mr. Berman. I asked Ms. Ellmers, but whoever.
    Ms. Ellmers. Would the gentleman yield?
    Mr. Berman. Yes.
    Ms. Ellmers. Yes, well, you have pointed out some fine 
points. In fact, you've outlined in your opening comments the 
lack of information, the misinformation that is out there and 
this is exactly the point. And I would reiterate to you again 
that this was the winning you cut proposal that the American 
people--please, if I could just maintain my----
    Mr. Berman. No, let me just reclaim my time, it is my time. 
I want to understand what is the information. No one has told 
me about something UNFPA has done that constitutes a coercive 
family planning practice, a forced abortion or one child--no 
one has made such an assertion. What they have said is they're 
operating in a country where that is going on and then you have 
added and we don't know what they're doing there. There's a 
lack of transparency. And I'm trying to find out what is it 
that you're--what have you tried to get that you haven't been 
able to get?
    Ms. Ellmers. Well, let me outline to you, John Negroponte, 
then Deputy Secretary of State, June 26, 2008, State Department 
determination denying U.S. funds to the UNFPA that--and I 
quote--``all UNFPA programming related to contraceptive and 
reproductive health incorporates and defers to Chinese law and 
regulation.'' This is the Chinese law that is in place for the 
one-child policy and the UNFPA adheres to that. The national 
law and the provincial regulations are a framework for Chinese 
coercive birth policy.
    Mr. Berman. What is UNFPA--reclaiming my time--what do they 
do? My guess is American companies, American tourists, comply 
with all kinds of Chinese laws. What does the agency and its 
people do in China that holds them culpable for the odious and 
outrageous practices of the Chinese Government? That's what I'm 
trying to get my hands on.
    Ms. Ellmers. I will once again point out, one, the lack of 
transparency, but I would like to further that with a statement 
from Sven Burmenester in 1999, a UNFPA representative talking 
about the Chinese population control programs. His quote was, 
``China has had the most successful family planning policy in 
the history of mankind in terms of quantity and with that China 
has done mankind a favor.''
    Chairman Ros-Lehtinen. The gentleman's time has expired. I 
just want to say we were going to entertain unanimous consent 
to roll the votes because it seemed to be easier for our 
members, but apparently we want to keep on voting so I will 
continue to recognize members who wish to speak on the 
amendment that is before us. And then we still have Mr. Payne's 
two amendments. We have a Cicilline amendment, and we have a 
Keating amendment, and a Murphy amendment.
    Mr. Smith is recognized.
    Mr. Smith. First of all, let me say to the sponsor, I 
deeply respect her and thank her for her good work. The other 
day when we were at the White House, I thought it was excellent 
that she was working on foster care. But let me just say as 
well, that I was in Banda Aceh. I was in Sri Lanka. And also 
visited Phuket after the horrific tsunami in 2005 as you 
pointed out.
    UNFPA is not the only player in town. There are large 
numbers of NGOs, large numbers of private volunteer 
organizations, government health departments and the like, all 
who have capacity, who provide much needed and often compete 
for very scarce dollars for virtually every program that we 
provide.
    We always have more people asking for money than those that 
we are able to fund. UNFPA, we argue, disqualifies itself 
pursuant to the Kemp-Kasten law that says very simply that any 
organization that support or co-manages a coercive population 
control program is precluded funding. It is to say that all 
family planning absolutely bright lined in the sand must be 
voluntary and also we would hope would be not abortive because 
abortion is not family planning. It takes the life of a baby, 
as Planned Parenthood itself admitted in the '60s after that 
child's life has begun.
    So money that doesn't go to the UNFPA is reprogrammed for 
maternal healthcare or some other program somewhere else. It's 
not like the money is lost somehow in the system. And in the 
past, we have had amendments that suggested that it ought to go 
to this program or that program in order to ensure that vital 
programs like fistula repair are funded.
    UNFPA, though, as Sven Burmenester, as Ms. Ellmers has just 
mentioned a moment ago, they have been saying China is the 
model. They're not saying don't coerce, don't exploit women. 
They're saying China is the model.
    I have met about 100 women, both in China and at all of 
those hearings that I've held including the one just a couple 
of weeks ago, three of whom were forcibly aborted and you hear 
them tell how the government so aggressively coerces. It starts 
with economic disincentives, fines and penalties, and if the 
woman persists, she is literally dragged in.
    There has been no record of UNFPA saying publicly or 
privately, they don't tell us what they do privately, that they 
have tried to stop this. Instead, they say to all-comers, they 
whitewash these crimes, frankly. They say to everybody who is a 
critic that this is the program that needs to be emulated.
    God forbid that we have a one-child-per-couple policy, and 
I will yield, all over the world, because--and you look at what 
just recently at a summit in Cancun. Ted Turner said we need a 
world, including the United States, with a one-child-per-couple 
policy. That means brothers and sisters are illegal. In 
dictatorships, it will be very easy, obviously, it would be a 
lot harder to get that implemented in a democracy like the 
United States or many of European friends.
    We've asked--the administration previously--PRM asked does 
UNFPA training include explicit prohibitions against using 
coercive measures? No answer. They were asked exactly what is 
Marie Stopes International, the health implementing partner 
doing? They were told in this Q&A that that is confidential. We 
can't tell you.
    So we see all of this support for the Chinese family 
planning program. We see awards going to the executive director 
of the UNFPA from the China State Family Planning Organization. 
It's not rocket science to say they are complicit. They are 
supporting it. And as I said before, the woman who ran it, Pong 
Peyun. I got a rare meeting with her when I was in Beijing. She 
kept telling me how the UNFPA is here, on the ground, and sees 
no evidence of coercion.
    Please, if you believe that, I'll sell you the Brooklyn 
Bridge. It is horrific. Take the time to know what's going on 
on the ground. It's all about defending women. They can't fight 
against--look at Chen Guangcheng, the blind activist lawyer who 
is under house arrest along with his wife, has been beaten to a 
pulp repeatedly by Chinese secret police, went to prison and 
what was his crime? Defending women in Liaoning province who 
were being forcibly aborted. And they absolutely threw the book 
at this man.
    And then we want to give money to an organization that is 
also on the ground like Chen Guangcheng who are saying this is 
what not only what China should continue doing, but also what 
the rest of the world needs to emulate. And believe me, in 
Africa and elsewhere, the lessons learned, negative lessons at 
that, are being promoted all over Africa. Child limitation is 
the means to an end and of course in dicatorships it absolutely 
includes coercion just like in China.
    Chairman Ros-Lehtinen. Thank you. Do other members seek 
recognition on the amendment?
    If not, the question occurs on the amendment. All those in 
favor, say aye.
    [Ayes.]
    Chairman Ros-Lehtinen. All those opposed, no.
    [Noes.]
    Chairman Ros-Lehtinen. In the opinion of the Chair the noes 
have it. And the amendment is not agreed to.
    Ms. Bass requests a roll call vote and the clerk will call 
the roll. This is on the Bass amendment.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no. Mr. Smith.
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no. Mr. Burton.
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no. Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no. Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no. Mr. Manzullo.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no. Mr. Royce.
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no. Mr. Chabot.
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no. Mr. Paul. Mr. Pence.
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no. Mr. Wilson.
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no. Mr. Mack.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no. Mr. Fortenberry. Mr. 
McCall. Mr. Poe. Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no. Ms. Schmidt.
    Ms. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no. Mr. Johnson. Mr. Rivera.
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no. Mr. Kelly.
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no. Mr. Griffin.
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no. Mr. Marino.
    Mr. Marino. No.
    Ms. Carroll. Mr. Duncan.
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no. Ms. Buerkle.
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no. Ms. Ellmers.
    Ms. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no. Mr. Turner.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye. Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye. Mr. Faleomavaega. Mr. 
Payne.
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye. Mr. Engel.
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye. Mr. Meeks. Mr. Carnahan.
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye. Mr. Sires. Mr. 
Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye. Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye. Mr. Cardoza. Mr. 
Chandler.
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye. Mr. Higgins. Ms. 
Schwartz. Mr. Murphy.
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye. Ms. Wilson. Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye. Ms. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye. Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Ms. Carroll. Mr. Poe.
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no. Mr. Fortenberry.
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Chairman Ros-Lehtinen. If the clerk will report the vote.
    Ms. Carroll. Madam Chairman on that vote there are 13 ayes, 
and 21 noes.
    Chairman Ros-Lehtinen. The noes have it and the question is 
not agreed to. Mr. Payne is recognized to explain his two 
amendments to offer.
    Mr. Payne. Thank you, Madam Chair, Amendment 647, it's at 
the desk and while they are distributing it, I'll move on for 
the benefit of the time, Madam Chair. This amendment that I 
introduce with Mr. Keating grants the President authorization 
to support UNFPA in their work to promote the access of woman, 
unaccompanied minors, and other vulnerable people to vital 
services including access to water, sanitation facilities, food 
and healthcare as well as support services to prevent and 
respond to gender-based violence and emergency in conflict 
situations.
    As you know, UNFPA is a critical player in emergencies 
whether it's armed conflict, famine or natural disaster. Some 
60 million people are currently internally displaced and lack 
basic human necessities. Most vulnerable in this population, of 
course, are women and children and they account for over 75 
percent of this displaced people in conflict zones. More women 
die from childbirth complications, preventable diseases and 
malnutrition than from the actual violence that is occurring on 
the field.
    Failing to target and treat these women as consequences 
beyond the individual often threatens the child. More than 15 
of all pregnancies have complications requiring emergency 
obstetric care during delivery. However, in times of crisis, 
obstetric care is often overlooked, increasing child mortality 
and vulnerability to HIV.
    The last two decades, the number of natural disasters has 
quadrupled and the number of people affected by these disasters 
has increased by 76 million. Over the last decade an additional 
100 people per hour have become displaced through the 
conflicts. Now is not the time to reduce the support we provide 
to the most vulnerable among us. In emergency situations UNFPA 
is on the front line saving lives of men, women, and children, 
newborns, and that is why I urge you support this amendment, 
and Madam Chair, I yield back the balance of my time.
    [The amendment offered by Mr. Payne and Mr. Keating 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Ros-Lehtinen. Thank you, Mr. Payne. Hearing no 
other members requesting recognition, the question occurs on 
the amendment. All those in favor say aye.
    [Ayes.]
    Chairman Ros-Lehtinen. All opposed, no.
    [Noes.]
    Chairman Ros-Lehtinen. In the opinion of the Chair, the 
noes have it and the amendment is not agreed to.
    Mr. Payne. Madam Chair, may I have a recorded vote?
    Chairman Ros-Lehtinen. And the clerk will call the roll.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no. Mr. Smith.
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no. Mr. Burton.
    Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no. Mr. Rohrabacher. Mr. 
Manzullo.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no. Mr. Royce.
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no. Mr. Chabot.
    Mr. Paul. Mr. Pence.
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no. Mr. Wilson.
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no. Mr. Mack.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no. Mr. Fortenberry.
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no. Mr. McCaul.
    Mr. Poe. Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no. Ms. Schmidt.
    Ms. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no. Mr. Johnson.
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no. Mr. Rivera.
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no. Mr. Kelly.
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no. Mr. Griffin.
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no. Mr. Duncan.
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no. Ms. Buerkle.
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no. Ms. Ellmers.
    Ms. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no. Mr. Turner.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye. Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye. Mr. Faleomavaega. Mr. 
Payne.
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye. Mr. Engel.
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye. Mr. Meeks. Mr. Carnahan.
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye. Mr. Sires. Mr. 
Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye. Mr. Deutch. Mr. 
Cardoza. Mr. Chandler.
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye. Mr. Higgins. Ms. 
Schwartz. Mr. Murphy.
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye. Ms. Wilson. Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye. Ms. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye. Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye. Mr. Poe.
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no. Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Ms. Carroll. Mr. Turner.
    Mr. Turner. No.
    Ms. Carroll. Mr. Turner votes no. Mr. Chabot.
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Chairman Ros-Lehtinen. Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded? The 
clerk will report the vote.
    Ms. Carroll. Madam Chair, on that vote, there are 13 ayes 
and 23 noes.
    Chairman Ros-Lehtinen. The noes have it. The question is 
not agreed to. Mr. Payne is recognized for his next amendment.
    Mr. Payne. I have an amendment at the desk, Amendment 658.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2059 offered by Mr. Payne. 
In section 1, insert ``and except as provided in section 2'' 
before ``the Secretary of State''. Add at the end of the 
following: Section 2. Exception. Section 1 shall not apply in 
the case of contributions to UNFPA to carry out activities in 
the Democratic Republic of Congo.
    [The amendment offered by Mr. Payne follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. We will wait 1 second until the 
members have the amendment, and then I will recognize Mr. 
Payne. Mr. Payne is recognized.
    Mr. Payne. Thank you very much, Madam Chair. My amendment, 
as has been indicated, grants the President authorization to 
support UNFPA's activities in the Democratic Republic of Congo. 
The infant mortality rate in the DRC is 78.43 deaths per 1,000 
live births, which of course makes the DRC one of the highest 
incidences of infant mortality in the world.
    The UNFPA is on the ground in the DRC, combating this in a 
number of ways, and working to make motherhood safer. Ensuring 
there is a skilled birth attendant and access to emergency 
obstetric care are some of the simple solutions UNFPA employs 
to prevent the complications from becoming debilitating and 
life-threatening.
    In the DRC, half of all women will have a child by the age 
of 19. A child bride faces greater health risks and experiences 
real physical violations and trauma as her young body is forced 
to deal with early sexual activity and the strain of pregnancy 
and childbirth.
    The UNFPA is working across the DRC to educate people about 
how delaying childbirth for even 5 years would have immense 
health benefits to women. In this war-torn country, rape and 
sexual violence plague the population. The U.N. has declared 
DRC to be the rape capital of the world.
    I recently returned, about a month or so ago, from three 
camps where rape victims live, in the hardship that they lived 
with, and their children. It was just heart-wrenching. UNFPA 
has been aiding survivors of sexual violence throughout the 
country for many years, by providing everything from medical 
care to legal assistance.
    UNFPA has also trained thousands of troops in the armed 
forces, and from the U.N., on how to deal with and assist rape 
victims. UNFPA has entered refugee camps, including Camp 
Kibaki, to provide condoms, STD test kits, as well as treatment 
for STDs. It also provides kits for rape victims, and clean 
delivery kits.
    UNFPA is on the front lines fighting for human rights. I 
ask that you please support the UNFPA's work in the DRC by 
voting yes for this amendment. I yield back the balance of my 
time.
    Chairman Ros-Lehtinen. Thank you. Do any members seek 
recognition on this amendment? Seeing no requests for 
recognition, the question occurs--yes. Mr. Ackerman is 
recognized for 5 minutes.
    Mr. Ackerman. I would just like to ask Mr. Payne a 
question. Does any of this money go to abortions?
    Mr. Payne. Absolutely not.
    Mr. Ackerman. Could somebody explain, if none of this money 
is going for abortions, and it is going for only those good 
purposes that Mr. Payne outlined, why would somebody object to 
this amendment?
    Ms. Ellmers. Will the gentleman yield?
    Mr. Ackerman. I would be delighted.
    Ms. Ellmers. And again, a very good question, and one that 
I think has been reiterated over, and over, and over again 
today. You know, good things in one part of the world do not 
offset human rights abuses in another. If the UNFPA truly does 
care----
    Mr. Ackerman. But this is only for that part of the world, 
as I----
    Ms. Ellmers. Again, and this goes to Mr. Payne's actual 
amendment, about human rights and the UNFPA supporting human 
rights efforts. If they truly do believe this, and they truly 
do believe in the rights of women and families, children, then 
they will start by pulling their assistance to the Chinese 
population control agencies----
    Mr. Ackerman. But I can't----
    Ms. Ellmers [continuing]. And stop the strong----
    Mr. Ackerman. I take it your argument goes to fungibility?
    Ms. Ellmers. Absolutely, sir.
    Mr. Connolly. Would my good friend yield?
    Mr. Ackerman. I have a hard time reconciling how we apply 
standards here, and I understand all of the sensitivities of 
the issue. But if there were--let me first just state that I am 
a very strong believer in separation of church and state. 
Nonetheless, like a lot of us, I support providing funds for 
certain religious institutions, so that they can use it for 
transportation or general education, within church schools or 
church supported schools, despite the fact that money might be 
fungible, so that we can provide general services for the good 
things they do.
    Nobody makes the case that because a particular church or 
religion may have some people running amok and abusing 
children, that until that policy stops we shouldn't be doing 
the good things that that church, or institution, or religion 
might be doing, because that money is fungible. How do we 
reconcile that?
    I know that it is not an official policy of the church, but 
certainly cover-ups some people consider an official policy. 
And we know that everybody on both sides decries those abuses, 
if indeed they do take place, but why do we not cut off those 
funds until that organization, I think you said ``cleans up its 
act'' internationally.
    Mr. Connolly. Would my good friend yield for a question?
    Mr. Ackerman. I would.
    Mr. Connolly. Mr. Ackerman, over here. Following your 
logic, Mr. Ackerman, I agree with what you are getting at. If 
we are going to buy into guilt by association--no proof that 
the party that is the subject of the legislation has done 
anything wrong, but just the fact that it operates in another 
country where we think some things have been done wrong--we 
believe they have been--that is good enough.
    And this issue of fungibility. Wouldn't it logically 
follow, Mr. Ackerman, that we ought to be actually marking up 
legislation to require the disinvestment of all U.S. companies 
in China? Because money is fungible, and guilt by association: 
The fact that they are there automatically makes them complicit 
in a policy we abhor.
    Mr. Ackerman. I think I get your point, and I think you get 
my point. I don't think anybody else gets it. I think there is 
a lack of consistency here. And I understand the sensitivities, 
and I don't think any of us want to cut off money for doing 
good things, and you don't want to condemn everybody for 
everything when there are policies that were obviously--or seem 
obviously to be taking place, either in commission or in 
covering those up.
    And I don't know how you punish good acts, that are done by 
good people, because of things that you might believe are bad 
things to do.
    Mr. Payne. Mr. Ackerman, would you yield?
    Mr. Ackerman. I would.
    Mr. Payne. I would just ask--and I can appreciate the 
feelings of people who are very much pro-life, but I would 
implore some of you to visit a place like the DRC, where people 
live on volcanic rock, and women who have been raped, who stand 
up before you and tell you about their situations. I think you 
might have a little bit different----
    Chairman Ros-Lehtinen. Thank you. The gentleman's time has 
expired, Mr. Ackerman's time. And the gentleman, Mr. Smith, is 
recognized, who knows a bit about this issue.
    Mr. Smith. First of all, as my good friend and colleague 
from New Jersey knows, I have been to the DR Congo, not only 
chaired several hearings on it, the violence against women and 
the like, I went to Goma. And I visited several NGOs that were 
working and doing Herculean, outstanding efforts expended upon 
women who were subjected to violence, and women who experienced 
obstetric fistulas. And Heal Africa, for example, is doing 
magnificent things. They are not UNFPA.
    There are other organizations that, if the United Nations 
Population Fund insists on aiding and abetting coercion and 
violence against women in China, and then seeks to export that 
model elsewhere, including to Africa--as you may recall, 3 
years ago, the health ministers of most of the sub-Saharan 
African countries were invited to Beijing, and under the 
auspices of the UNFPA and the coercive State Family Planning 
Council, were told, ``If you want to have economic prosperity, 
the means to that end is to limit the number of children.''
    Paul Kagame from Rwanda came back, and he is talking now 
about a three child per couple policy, and you only get there 
through coercion. Women and families will always want to have 
children, and the government then steps in and says, ``You 
can't have that child.''
    Mr. Berman said earlier that there is no consensus for what 
China is doing. I would agree, but that doesn't apply to the 
U.N. Population Fund. They like the program in China. They say 
it repeatedly, publicly. They tell me that. So after a while--
they train family planning cadres. So their consensus is to 
support, enable, aid and abet this horrific crime against 
women.
    And again, for an NGO or some group that we don't support, 
we provide that money to another group, like in the DR Congo 
where other organizations are there. And as I would also say, 
with fistula, I worked very hard to build capacity within USAID 
so we have complete transparency, accountability, so those 
monies are going where we can say, ``How much did we spend? 
What did we do to try and mitigate the misery and pain suffered 
by fistula victims?''
    We have no such accountability whatsoever with UNFPA. They 
take our money, and then slam the door in our face. That is no 
way to run an NGO, a multilateral organization, or a U.N. 
organization.
    I yield back.
    Chairman Ros-Lehtinen. The gentleman yields back. Hearing 
no further requests for recognition, the question occurs on the 
Payne amendment. All those in favor, say aye.
    [Ayes.]
    Chairman Ros-Lehtinen. All opposed no.
    [Noes.]
    Chairman Ros-Lehtinen. In the opinion of the Chair, the 
noes have it and the amendment is not agreed to.
    Mr. Payne. Recorded vote.
    Chairman Ros-Lehtinen. Mr. Payne requests a recorded vote. 
The clerk will call the roll.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton.
    [No response.]
    Ms. Carroll. Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce.
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot.
    [No response.]
    Ms. Carroll. Mr. Paul.
    [No response.]
    Ms. Carroll. Mr. Pence.
    [No response.]
    Ms. Carroll. Mr. Wilson.
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no.
    Mr. Mack.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry.
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul.
    [No response.]
    Ms. Carroll. Mr. Poe.
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no.
    Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt.
    Ms. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson.
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera.
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly.
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin.
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino.
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan.
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle.
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers.
    Ms. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Turner.
    Mr. Turner. No.
    Ms. Carroll. Mr. Turner votes no.
    Mr. Berman.
    [No response.]
    Ms. Carroll. Mr. Ackerman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    [No response.]
    Ms. Carroll. Mr. Payne.
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel.
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks.
    [No response.]
    Ms. Carroll. Mr. Carnahan.
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires.
    [No response.]
    Ms. Carroll. Mr. Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza.
    [No response.]
    Ms. Carroll. Mr. Chandler.
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins.
    [No response.]
    Ms. Carroll. Ms. Schwartz.
    [No response.]
    Ms. Carroll. Mr. Murphy.
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson.
    [No response.]
    Ms. Carroll. Ms. Bass.
    [No response.]
    Ms. Carroll. Mr. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Ms. Carroll. Mr. Chabot.
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Burton. Have I been recorded?
    Ms. Carroll. Mr. Burton, you are not recorded.
    Mr. Burton. I vote no.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Higgins.
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Chairman Ros-Lehtinen. The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 14 ayes 
and 23 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to. We have a Cicilline amendment, and a possible 
two amendments from Mr. Keating. Mr. Cicilline, would you like 
to----
    Mr. Cicilline. Yes, thank you, Madam Chairman. I actually 
have two amendments at the desk. I would like to begin with 
Amendment 649, which is co-sponsored by Congresswoman Allison 
Schwartz.
    Chairman Ros-Lehtinen. The clerk will report the Cicilline-
Schwartz amendment.
    Ms. Carroll. Amendment to H.R. 2059 offered by Mr. 
Cicilline of Rhode Island and Ms. Schwartz of Pennsylvania.
    In section 1 insert ``and except as provided in section 
2,'' before ``the Secretary of State''. Add at the end of the 
following: Section 2----
    [The amendment offered by Mr. Cicilline and Ms. Schwartz 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Ros-Lehtinen. Thank you. The Chair reserves a 
point of order, and in the interests of time I would like to 
recognize the author for 5 minutes to explain the amendment, 
while the amendment copies are being given out. Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman. I am strongly 
opposed to this underlying bill, but hope that passage of this 
amendment will mitigate the detrimental impact of this 
legislation on women's reproductive health all around the 
globe.
    UNFPA is the organization that provided safe delivery kits 
to women in the days after the 2004 tsunami in Asia, so that 
thousands of women could give birth safely in the aftermath of 
this disaster. UNFPA leads efforts to eliminate obstetric 
fistula, distribute effective contraceptives, prevent HIV and 
AIDS, and deliver healthy newborns. United States funds are 
essential to the continued provision of these types of 
services.
    In addition, some of the benefits of U.S. international 
family planning assistance include 37.4 million women and 
couples receiving contraceptive services, 11.7 million 
unintended pregnancies are prevented. There are 5.1 million 
fewer abortions, and 32,000 maternal deaths averted. If the 
United States stops funding these crucial life-saving 
initiatives, we can expect more unintended pregnancies, more 
abortions, and more maternal deaths.
    For these reasons, I am offering an amendment that would 
allow the U.S. to continue to contribute to UNFPA's work in 
post-conflict and disaster situations by providing and 
distributing equipment, medicine, supplies, and expertise, 
including safe delivery kits and hygiene kits to ensure safe 
childbirth and emergency obstetric care.
    UNFPA provides safe delivery and hygiene kits to ensure 
safe childbirth and emergency care to those most vulnerable to 
complications of pregnancy and childbirth which are a leading 
cause of disease and death among refugee women of childbearing 
age.
    UNFPA responds to emergencies in a broad range of 
situations and settings. The conditions may be hostile or 
hospitable, politically charged or on the path to peace. But 
they are never easy. In the aftermath of the earthquake in 
Haiti in January 2010, the needs of 63,000 pregnant women were 
met through dissemination of safe delivery kits that were 
provided with UNFPA's support.
    After unrest in East Timor damaged or destroyed almost 
every medical facility, UNFPA worked with NGOs to distribute 
equipment for clinics and basic supplies, such as soap, plastic 
sheeting, and even a razor blade for cutting the umbilical cord 
of a newborn.
    Whether the emergency is due to violence, as in Timor, or 
earthquakes, as in Haiti, or a hurricane, as in Guatemala, 
UNFPA stands ready to assist pregnant women in this time of 
compounded vulnerability, and I strongly urge my colleagues to 
support this amendment and to oppose the underlying bill. But 
this amendment will ensure that in those circumstances, 
emergencies, that the UNFPA can continue to carry out 
activities that provide and distribute medicine, supplies, 
expertise, equipment--that will include safe delivery kits and 
hygiene kits--to ensure safe childbirth and emergency obstetric 
care.
    And I hope that everyone can support this amendment. This 
is an opportunity to be certain that, in those instances where 
we have an opportunity to really help in the safe birth of a 
child, that the UNFPA will continue to be able to devote 
resources to those activities. And with that, I yield back the 
balance of my time.
    Chairman Ros-Lehtinen. Mr. Ackerman is recognized.
    Mr. Ackerman. Yes, I have a question for the author of the 
amendment, Mr. Cicilline.
    Mr. Cicilline. Yes.
    Mr. Ackerman. Does your amendment promote abortion?
    Mr. Cicilline. Absolutely not. In fact, it specifically 
refers to ensuring the safe childbirth and emergency obstetric 
care, so it is----
    Mr. Ackerman. Does it pay for abortions?
    Mr. Cicilline. It does not.
    Mr. Ackerman. Does it encourage abortions?
    Mr. Cicilline. It does not.
    Mr. Ackerman. Does it help provide for safe deliveries and 
live births?
    Mr. Cicilline. Yes.
    Mr. Ackerman. So this is a pro-life amendment?
    Mr. Cicilline. It is absolutely a pro-child amendment.
    Mr. Ackerman. Does anybody think that this is anything--
this specific amendment is anything but a pro-child, pro-child-
being-born-live-and-safely amendment? If not, I yield back the 
balance of my time.
    Chairman Ros-Lehtinen. Thank you. Hearing--yes, Mr. Berman?
    Mr. Berman. Madam Chairman, again I rise in support of the 
amendment. The only thing specific that I have heard regarding 
UNFPA and support for Chinese coercive birth control, forced 
abortion, one-child policies is a statement from a UNFPA 
employee in 1999. That employee was let go.
    The current executive director and the past three executive 
directors have come out publicly and forcefully against the 
practices in China for all kinds of reasons, including the fact 
that this policy--these policies are used to indicate sex 
preference in terms of who is going to be born or not.
    Again, the horrible consequences of a horrible policy. It 
sounds to me like a gross distortion to make the contention 
that somehow, because they are operating in China, they are 
complicit in the practices that we, I think by strong 
consensus, share here. If--the logical extension of what you 
are suggesting with this amendment is, ``Let us repeal MFN 
status for China. Let us go to the leadership of the Republican 
Party to schedule the markup of a vote on a bill to deal with 
Chinese manipulation of currency fluctuations. Let us stop 
export subsidies to China. Let us''--if the notion that, 
because we do things in the normal way with this country, even 
though they have these policies is the logic here, you have got 
a lot more to do than cut off the funding of UNFPA.
    Mr. Deutch. Would the gentleman yield?
    Mr. Berman. I would be happy to yield.
    Mr. Deutch. Since the ranking member first asked the 
question earlier in this hearing, or earlier in this markup, we 
have also heard--and I am not sure the ranking member was here 
for all of these statements--we have heard that the UNFPA 
supports the one-child policy, that it co-manages the one-child 
policy, that it says the one-child policy should be emulated.
    We have heard that it repeatedly speaks in favor of the 
one-child policy. And I would join with the ranking member for 
some support that actually is consistent with these statements, 
and is inconsistent with the State Department's own conclusion 
that the UNFPA never supported the policy of coercive abortion 
or involuntary sterilization. And I yield back to the ranking 
member.
    Mr. Berman. I yield back to you.
    Chairman Ros-Lehtinen. Mr. Smith is recognized.
    Mr. Smith. Just to remind members, the finding by the U.S. 
Department of State in 2008, after an extensive review--and I 
would invite members to avail themselves of reading that--said 
that ``all,'' repeat, ``all UNFPA programming incorporates and 
defers to Chinese law and regulation.''
    Mr. Berman. What does that mean?
    Mr. Smith. In this, if you would take the time--with 
respect to my friend--and read it, the regulations are all laid 
out--not all of them, but many of them--the Federal 
regulations, and some of the----
    Mr. Berman. Would the gentleman yield?
    Mr. Smith. In a minute. And some of the county regulations 
make it very clear that one-child is the norm. There are very, 
very few exceptions. And UNFPA, in order to operate, to train 
family planning cadres, for example, is there any evidence that 
they have said coercion has no place? Marie Stopes 
International actually has the health program for the UNFPA.
    Mr. Berman. Where are you----
    Mr. Smith. Our State Department asked repeatedly, ``Exactly 
what are they doing?''
    And they said, UNFPA, ``We won't tell you.''
    When we asked for the family planning programs--we trained 
tens of thousands of cadres on how to implement this policy. 
When that was done, we said, ``Where are the training manuals? 
What did they do?''
    They said, ``Call Beijing and get it from them.'' Not UNFPA 
Beijing, but the State Family Planning. And that never was 
forthcoming. So that is the problem. No transparency. They have 
aided and abetted this. They are----
    Mr. Berman. How have they aided and abetted it?
    Mr. Smith. By supporting it. They are on the ground, 
supporting----
    Mr. Berman. Where? Why do you say that? Give me the facts?
    Mr. Smith. Well, the facts are--I have said it several 
times.
    Chairman Ros-Lehtinen. If you could go through the Chair? 
Thank you.
    Mr. Smith. I have said it several times.
    Mr. Deutch. Will the gentleman yield for a question?
    Mr. Smith. Yes, I yield.
    Mr. Deutch. And I don't think that this is repetitive. It 
is one thing to suggest that the abhorrent China one-child 
policy is in place in a country where the UNFPA offers services 
to help maternal health. It is----
    Mr. Smith. Reclaiming my time. They can't operate outside 
of the regulations of the government.
    Chairman Ros-Lehtinen. It is Mr. Smith's time.
    Mr. Smith. Their laws. They are in tune with them, in sync 
with those regulations. That makes them a part of it. We have 
asked them repeatedly, ``Leave China.''
    Mr. Deutch. Would the----
    Chairman Ros-Lehtinen. No. Mr. Smith will be glad to yield 
to you, if he so chooses.
    Mr. Deutch. If I could----
    Mr. Smith. I yield.
    Mr. Deutch. Thank you. There is a difference between that 
argument and stating that the UNFPA co-manages the one-child 
policy, says repeatedly around the world that the one-child 
policy should be emulated. There is simply no evidence for 
that.
    Mr. Smith. UNFPA executive directors have gotten awards. 
They have said it is a totally voluntary program. I mean, that 
is denial of----
    Mr. Marino. Will the gentleman yield?
    Mr. Smith. I will be happy to yield.
    Mr. Marino. According to Secretary of State Colin Powell, 
2008 report, UNFPA supplied cars and computers to China to 
carry out their population control policies. Look it up. I'll 
give you the cite.
    Mr. Deutch. Will----
    Chairman Ros-Lehtinen. Mr. Deutch, no. Mr. Smith has the 
time.
    Mr. Smith. Madam Chairman, I yield back the balance of my 
time. We are getting----
    Chairman Ros-Lehtinen. Yes, thank you.
    Mr. Deutch. Will the gentleman yield?
    Chairman Ros-Lehtinen. The gentleman yielded back the 
balance of his time. Do any other members seek recognition to 
speak on the first Cicilline amendment?
    Mr. Connolly. Madam Chairman?
    Chairman Ros-Lehtinen. Ms. Schmidt is--oh, someone over 
here?
    Mr. Connolly. Yes.
    Chairman Ros-Lehtinen. Oh, Mr. Connolly is recognized, and 
then Ms. Schmidt.
    Mr. Connolly. Thank you. First, I would yield to Mr. 
Ackerman.
    Chairman Ros-Lehtinen. Mr. Ackerman?
    Mr. Ackerman. I have a question of our colleague, Mr. 
Smith. Does the U.N. abide by the laws in every member country?
    Chairman Ros-Lehtinen. Mr. Ackerman, you are not allowed to 
ask Mr. Smith. Mr. Connolly may give time to Mr. Smith.
    Mr. Ackerman. It is my----
    Chairman Ros-Lehtinen. It is Mr. Connolly's time.
    Mr. Ackerman. Mr. Connolly, may I ask Mr. Smith a question?
    Mr. Connolly. Certainly, Mr. Ackerman.
    Mr. Ackerman. Mr. Smith, isn't it the rules of the U.N. to 
abide by every country's laws?
    Mr. Connolly. I would yield to Mr. Smith.
    Mr. Smith. My hope would be that any U.N. personnel, any 
member agency, voluntary agency--UNFPA, for example--if there 
is a country that is practicing torture, for example, the U.N. 
police, peacekeepers, should in no way be complicit in that. 
That is the issue here. And if a country were to say----
    Mr. Connolly. Reclaiming my time, Madam Chairman.
    Mr. Ackerman. Mr. Connolly?
    Mr. Connolly. Yes, Mr. Ackerman?
    Mr. Ackerman. Could I ask Mr. Smith if we should boycott 
Google because they have to obey the laws in China?
    Mr. Connolly. I would yield to Mr. Smith.
    Mr. Smith. I am glad you brought that up, because I am the 
one who asked Google, Yahoo!, Microsoft, and Cisco here to 
testify, and introduced legislation to hold them to account, 
because they had no transparency either in their enabling of 
censorship in the People's Republic of China.
    Mr. Ackerman. So we should not be supporting Google?
    Mr. Smith. Wait a minute. Let me finish.
    Mr. Connolly. Reclaiming my time, Madam Chairman.
    Mr. Smith. We are talking about the massive abuse of 
women----
    Mr. Connolly. Madam Chairman, as it is my time----
    Chairman Ros-Lehtinen. Mr. Connolly has the time.
    Mr. Connolly. It is my time. Thank you very much, Madam 
Chairman. I would ask the ranking member--I hear Mr. Smith and 
Mr. Marino quoting from a 2008 Bush administration report. I 
would ask the ranking member, is it not the case that there was 
a 2009 report that, in fact, found there was no violation of 
Kemp-Kasten?
    Mr. Berman. That is, in fact, correct.
    Mr. Connolly. So it is convenient to cite a 2008 report, 
but not convenient to cite a 2009 report. Is that correct?
    Mr. Smith. Would the gentleman yield?
    Mr. Berman. I would.
    Mr. Smith. I would love to see that report, because again--
--
    Chairman Ros-Lehtinen. Excuse me. Mr. Berman?
    Mr. Smith [continuing]. The President of the United States 
said 3 days----
    Chairman Ros-Lehtinen. Excuse me. So Mr. Berman, you have 
answered the question to Mr. Connolly. Mr. Connolly, would you 
like to yield to Mr. Smith?
    Mr. Connolly. Madam Chairman, that was the point I was 
going to make. We are being awfully selective in the reporting 
we want to cite. And I think the point has been made by Mr. 
Ackerman and Mr. Berman, and others, that essentially this is 
nothing but insinuation.
    The fact that UNFPA is in China, the fact that China has a 
policy in place we don't like--correctly so--makes UNFPA 
guilty, even though there are other U.N. agencies, I might add, 
in China, and at least I give Mr. Smith credit, he is being 
consistent. Based on his logic, and that of the author of the 
underlying legislation, this committee ought to be considering 
legislation to force U.S. companies to disinvest in China, 
because all money is fungible, and apparently guilt by 
association is the order of the day. And that is what this 
legislation represents.
    With that, I would--do my colleagues seek?
    Mr. Ackerman. I am not sure----
    Mr. Connolly. I will yield to Mr. Ackerman.
    Mr. Ackerman. I just want to say, I am not sure who was 
Edgar Bergen and who was Charlie McCarthy, but I just wanted to 
thank you for all that.
    Chairman Ros-Lehtinen. Thank you. Does the gentleman yield 
back his time?
    Mr. Connolly. I do, Madam Chairman.
    Chairman Ros-Lehtinen. Do any----
    Mr. Smith. Madam Chairman?
    Chairman Ros-Lehtinen. Yes, Mr. Connolly----
    Mr. Smith. Can I just say, Madam Chair, that it is 
absolutely----
    Chairman Ros-Lehtinen [continuing]. Yields back, and Mr. 
Smith is recognized.
    Mr. Smith. It is absolutely consistent to condition funding 
for----
    Chairman Ros-Lehtinen. Oh, I am sorry, Mr. Smith. I do 
apologize. I had said that I was going to recognize Ms. Schmidt 
first, and Ms. Schmidt is recognized at this time for 5 
minutes.
    Ms. Schmidt. Thank you.
    Chairman Ros-Lehtinen. I apologize.
    Ms. Schmidt. And I really appreciate all the dialogue that 
is going on with this issue. There, I think, is an overriding 
concern here, and that is, ``How do we best spend the hard-
working American taxpayer dollars in this country and abroad?'' 
There was a report in July 2011 on Fox News regarding unspent 
money in various U.N. agencies. Over $12.2 billion in unspent 
money. One of those agencies was this one, with $500 million in 
unspent money, which is about what their annual budget is.
    Now, no matter where you are on this issue, apparently they 
have got the money to run themselves for another year without 
our help. There are also other member organizations that can 
pick up the slack. My concern is, how do we help our hard-
working taxpayer Americans understand that we are being prudent 
and wise with their money? This is their money. This is not our 
money.
    And if you see an agency that is flush with cash, maybe you 
just don't give that agency money this year. You know, the 
Super Committee is charged with doing massive cuts, and if they 
don't do their job, we might see massive cuts for men and women 
on the battlefield, and our men and women that are in nursing 
homes. The elderly, the Medicare population.
    Nobody wants to see either, so we have to find dollars. And 
$500 million is a lot of money, at least where I come from, 
where I grew up. And I think that is a lot of money to the 
American public as well. And so, when we are looking at, how do 
we fund the agencies in the U.N.?, maybe we pick agencies that 
actually need the money, that don't have money in the cash 
reserves.
    That is where I am coming from, Madam Chair, on this. I 
want to make sure that our hard-working Americans are having 
the dollars that they send to the Federal Government being 
spent prudently, and wisely, and efficiently, and not going to 
agencies that already have the cash to operate. I yield back 
the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much, Ms. Schmidt. And 
hearing no further requests for recognition, the question 
occurs on the Cicilline-Schwartz amendment. All those in favor, 
say aye.
    [Ayes.]
    Chairman Ros-Lehtinen. All those say no.
    [Noes.]
    Chairman Ros-Lehtinen. In the opinion of the Chair, the 
noes have it and the amendment is not agreed to.
    Mr. Cicilline. Roll call.
    Chairman Ros-Lehtinen. Mr. Cicilline requests a roll call 
vote, and the clerk will call the roll.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton.
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce.
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot.
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul.
    [No response.]
    Ms. Carroll. Mr. Pence.
    [No response.]
    Ms. Carroll. Mr. Wilson.
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no.
    Mr. Mack.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry.
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul.
    [No response.]
    Ms. Carroll. Mr. Poe.
    [No response.]
    Ms. Carroll. Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt.
    Ms. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson.
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera.
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly.
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin.
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino.
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan.
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle.
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers.
    Ms. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Turner.
    Mr. Turner. No.
    Ms. Carroll. Mr. Turner votes no.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    [No response.]
    Ms. Carroll. Mr. Payne.
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel.
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks.
    [No response.]
    Ms. Carroll. Mr. Carnahan.
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires.
    [No response.]
    Ms. Carroll. Mr. Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza.
    [No response.]
    Ms. Carroll. Mr. Chandler.
    [No response.]
    Ms. Carroll. Mr. Higgins.
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz.
    [No response.]
    Ms. Carroll. Mr. Murphy.
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson.
    [No response.]
    Ms. Carroll. Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded? The 
clerk will report the vote.
    Ms. Carroll. Madam Chair, on that vote there are 13 ayes 
and 22 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to. Mr. Cicilline is recognized to offer his 
second amendment.
    Mr. Cicilline. Thank you, Madam Chair. My second amendment 
is Amendment 650.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2059 offered by Mr. 
Cicilline of Rhode Island. In section 1, insert ``and except as 
provided in section 2,'' before ``the Secretary of State''.
    Chairman Ros-Lehtinen. The Chair reserves a point of order 
and recognizes the author for 5 minutes to explain the 
amendment while the copies are given out. Mr. Cicilline?
    [The amendment offered by Mr. Cicilline follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Cicilline. Thank you, Madam Chairman. My amendment 
would allow the United States to continue supporting UNFPA in 
their critical efforts to end the practice of female genital 
cutting, and I want to acknowledge and thank my colleague, 
Congressman Deutch, for his eloquent words earlier on this 
important issue.
    Every year, approximately 3 million women and girls in 
Africa alone face the prospect of female genital mutilation, 
while 100-140 million worldwide have already undergone this 
hideous practice. UNFPA and UNICEF are working together and 
making real progress to end this horrific practice. Three years 
ago, through a joint program, more than 6,000 communities in 
Ethiopia, Egypt, Kenya, Senegal, Burkina Faso, the Gambia, 
Guinea, and Somalia have already abandoned this practice.
    Success has come from UNFPA and UNICEF's work in educating 
communities and changing social norms and cultural practices, 
leading women and men in communities to unite to protect the 
rights and health of girls. My amendment would allow UNFPA and 
UNICEF to continue their important and often life-saving work 
in combating female genital mutilation. I strongly urge my 
colleagues to support my amendment, and to, again, oppose the 
underlying bill.
    And I yield back the balance of my time.
    Chairman Ros-Lehtinen. The gentleman yields back. Do any 
members seek recognition?
    [No response.]
    Chairman Ros-Lehtinen. Seeing no recognition request, 
hearing no further requests for recognition, the Chair 
withdraws her reservation and the question occurs on the 
Cicilline amendment. All those in favor, say aye.
    [Ayes.]
    Chairman Ros-Lehtinen. All opposed, no.
    [Noes.]
    Chairman Ros-Lehtinen. In the opinion of the Chair, the 
noes have it, and the amendment is not agreed to.
    Mr. Cicilline. Roll call.
    Chairman Ros-Lehtinen. Mr. Cicilline requests a roll call 
vote. The clerk will call the roll.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton.
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce.
    [No response.]
    Ms. Carroll. Mr. Chabot.
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul.
    [No response.]
    Ms. Carroll. Mr. Pence.
    [No response.]
    Ms. Carroll. Mr. Wilson.
    [No response.]
    Ms. Carroll. Mr. Mack.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry.
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul.
    [No response.]
    Ms. Carroll. Mr. Poe.
    [No response.]
    Ms. Carroll. Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt.
    Ms. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson.
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera.
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly.
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin.
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino.
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan.
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle.
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers.
    Ms. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Turner.
    Mr. Turner. No.
    Ms. Carroll. Mr. Turner votes no.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    [No response.]
    Ms. Carroll. Mr. Payne.
    [No response.]
    Ms. Carroll. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel.
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks.
    [No response.]
    Ms. Carroll. Mr. Carnahan.
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires.
    [No response.]
    Ms. Carroll. Mr. Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza.
    [No response.]
    Ms. Carroll. Mr. Chandler.
    [No response.]
    Ms. Carroll. Mr. Higgins.
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz.
    [No response.]
    Ms. Carroll. Mr. Murphy.
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson.
    [No response.]
    Ms. Carroll. Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Ms. Carroll. Mr. Royce.
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Sires.
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Chairman Ros-Lehtinen. The clerk will report the vote.
    Ms. Carroll. Madam Chair, on that vote there are 13 ayes 
and 21 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to. Who has amendments at the desk? Mr. Keating 
is recognized. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2059 offered by Mr. Keating. 
In section 1, insert ``and except as provided in section 2'' 
before----
    Chairman Ros-Lehtinen. The Chair reserves a point of order, 
and recognizes the author for 5 minutes to explain the 
amendment.
    [The amendment offered by Mr. Keating follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Keating. Thank you, Madam Chair. The amendment will 
allow the United States to continue working with the United 
Nations Population Fund to end the practice of early and forced 
marriages worldwide. If we agree on one thing, let it be this: 
That child marriages only contribute to the devastating cycle 
of poverty, keeping young girls and women from receiving the 
proper education, and harming them both physically and 
mentally.
    These young women then have young children of their own, 
and they are brought into another dangerous environment 
themselves. It is estimated that at the decade ending in 2014, 
more than 100 million girls in the developing world will be 
married before the age of 18. That means 10 million children 
each year are jeopardizing their future, their health, and 
their well-being.
    The majority of child brides are exposed to frequent sexual 
relations, leading to repeated pregnancies and childbirth 
before they are really ready, physically or mentally, for this. 
And pregnancy-related deaths are also among the leading causes 
of mortality in 15- to 19-year-old girls, and those aged under 
15 are five times--five times--more likely to die than those 
averaged over 20. Infant mortalities are also twice as high in 
babies born to young mothers.
    Respectfully, I urge you to support this amendment. It is 
one area that we have cut out of this that I think should have 
universal agreement.
    Chairman Ros-Lehtinen. Sir, the Chair withdraws her 
reservation of a point of order. Are there any requests for 
recognition?
    [No response.]
    Chairman Ros-Lehtinen. Seeing no requests for recognition, 
the question occurs on the amendment. All those in favor, say 
aye.
    [Ayes.]
    Chairman Ros-Lehtinen. All those opposed say no.
    [Noes.]
    Chairman Ros-Lehtinen. In the opinion of the Chair, the 
noes have it, and the amendment is not agreed to.
    Mr. Keating. Madam Chair, I would request a roll call.
    Chairman Ros-Lehtinen. Mr. Keating requests a roll call 
vote, and the clerk will call the roll.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton.
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce.
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot.
    [No response.]
    Ms. Carroll. Mr. Paul.
    [No response.]
    Ms. Carroll. Mr. Pence.
    [No response.]
    Ms. Carroll. Mr. Wilson.
    [No response.]
    Ms. Carroll. Mr. Mack.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry.
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul.
    [No response.]
    Ms. Carroll. Mr. Poe.
    [No response.]
    Ms. Carroll. Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt.
    Ms. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson.
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera.
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly.
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin.
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino.
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan.
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle.
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers.
    Ms. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Turner.
    Mr. Turner. No.
    Ms. Carroll. Mr. Turner votes no.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman.
    [No response.]
    Ms. Carroll. Mr. Faleomavaega.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    [No response.]
    Ms. Carroll. Mr. Payne.
    [No response.]
    Ms. Carroll. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel.
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks.
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan.
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires.
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza.
    [No response.]
    Ms. Carroll. Mr. Chandler.
    [No response.]
    Ms. Carroll. Mr. Higgins.
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz.
    [No response.]
    Ms. Carroll. Mr. Murphy.
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson.
    [No response.]
    Ms. Carroll. Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded? The 
clerk will report the vote.
    Ms. Carroll. Madam Chair, on that vote there are 14 ayes 
and----
    Chairman Ros-Lehtinen. Sorry. Mr. Chandler.
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Chairman Ros-Lehtinen. The clerk will report the vote now.
    Ms. Carroll. Madam Chairman, on that vote there are 15 ayes 
and 20 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to. Are there further amendments to this bill? 
Mr. Murphy is recognized.
    Mr. Murphy. Thank you very much, Madam Chair. I have an 
amendment at the desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2059 offered by Mr. Murphy 
of Connecticut. In section 1, insert ``and except as provided 
in section 2'' before----
    Chairman Ros-Lehtinen. The Chair reserves a point of order, 
and recognizes the author, Mr. Murphy, for 5 minutes to explain 
the amendment.
    [The amendment offered by Mr. Murphy follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Murphy. Thank you, Madam Chairwoman. This amendment 
would allow for UNFPA to carry out activities dedicated to 
family-centered family planning throughout the world. And I 
think it underscores the surrealness of some of the debate that 
we have been having here today. There is not a single person on 
this panel that doesn't abhor and oppose the forced abortion 
policies that have been outlined over, and over, and over again 
over the course of this debate. What we are talking about is 
the best way for the United States to intervene and stop those 
policies.
    Now, I will certainly sell someone the Brooklyn Bridge if 
they believe that, by withdrawing funds from UNFPA, that China 
is all of a sudden going to stop this policy. The question is, 
what can we do to build a social resistance movement within 
China toward responsible family planning?
    And so this amendment is pretty simple. It would allow 
UNFPA to conduct family-centered family planning as part of 
their activities. The fact is, is that this country has a long 
history of combating irresponsible and reprehensible policies 
around the globe by funding responsible and humane policies, to 
give people in those countries a vision as to what life would 
be like if they threw off the yoke of that inhumanity.
    Now, we have heard rumor and innuendo about what UNFPA 
does, and little to no evidence--certainly within the most 
recent report from the Department of State--that they are 
actually funding and supporting these activities on the ground 
in China. And so I would put forward this amendment, frankly, 
as a way to get at the problem that I think we all agree on.
    I would also note that we have spent a lot of time talking 
about China here today, and there was the ability for the 
majority to offer an amendment here that was specific to China. 
But they didn't. They put forward an amendment that bans UNFPA 
from operating with American funds anywhere in the globe.
    And it strikes me, frankly, that this amendment is part of 
an assault that we have seen in this Congress on family 
planning and contraception, both abroad and in the United 
States. And because there was a much more targeted response 
that could have been offered here, it makes more sense to me 
that the amendments that we are looking at fits within this 
much broader attempt to defund contraception and birth control 
services, whether here in this country or across the globe.
    And I have heard several of the proponents of this 
legislation sort of champion the fact that it came out of this 
YouCut proposal, it came out of this YouCut movement. And it, I 
think, saddens me to know that we have now sort of devolved 
into a government that legislates by Internet voting.
    It is bad enough that the media covers this place like a 
soap opera or a reality TV show. We now are proud of the fact 
that we are having proposals before this committee and this 
Congress that come from Internet votes. And I think what 
happens is that you get extreme proposals like this that could 
have been much more targeted.
    We could have been having a conversation about how we 
specifically take on the issue of forced abortion in China, and 
instead we are denying funding to family planning services 
across the world, family planning services that have, over 
time, linked 56 million women across the world with access, 
that have driven down the rate of unintended pregnancies by the 
millions, that have saved thousands upon thousands of women's 
lives from the consequences of unintended pregnancies that go 
wrong in the delivery room.
    And so I would offer this amendment, I think, as a way to 
properly fund the kind of responsible family planning that 
ultimately convinces people in countries like China that they 
should no longer accept the type of practices that we all 
abhor. And I think it is probably a good idea for all of us to 
step back and wonder whether we should be crowing about the 
fact that an Internet vote leads us to this debate today, or 
whether we should be having a little bit more thoughtful 
discussion with our constituents and with our colleagues about 
how we go about foreign aid.
    I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much. And seeing no 
further requests for recognition, the Chair withdraws her 
reservation and the question occurs on the Murphy amendment. 
All those in favor, say aye.
    [Ayes.]
    Chairman Ros-Lehtinen. All opposed, no.
    [Noes.]
    Chairman Ros-Lehtinen. In the opinion of the Chair, the 
noes have it, and the amendment is not agreed to.
    Mr. Murphy. I request a roll call vote.
    Chairman Ros-Lehtinen. Mr. Murphy requests a roll call 
vote, and the clerk will call the roll.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton.
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce.
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot.
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul.
    [No response.]
    Ms. Carroll. Mr. Pence.
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson.
    [No response.]
    Ms. Carroll. Mr. Mack.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry.
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul.
    [No response.]
    Ms. Carroll. Mr. Poe.
    [No response.]
    Ms. Carroll. Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt.
    Ms. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson.
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera.
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly.
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin.
    [No response.]
    Ms. Carroll. Mr. Marino.
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan.
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle.
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers.
    Ms. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Turner.
    Mr. Turner. No.
    Ms. Carroll. Mr. Turner votes no.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    [No response.]
    Ms. Carroll. Mr. Payne.
    [No response.]
    Ms. Carroll. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel.
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks.
    [No response.]
    Ms. Carroll. Mr. Carnahan.
    Mr. Carnahan. Yes.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires.
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza.
    [No response.]
    Ms. Carroll. Mr. Chandler.
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins.
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz.
    [No response.]
    Ms. Carroll. Mr. Murphy.
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson.
    [No response.]
    Ms. Carroll. Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Ms. Carroll. Mr. Griffin.
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Chairman Ros-Lehtinen. The clerk will report the vote.
    Ms. Carroll. Madam Chair, on that vote there are 14 ayes 
and 22 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to. And for what I think is the last amendment, 
Mr. Murphy is recognized. I mean Mr. Keating. So sorry, sir.
    Mr. Keating. Thank you.
    Chairman Ros-Lehtinen. Mr. Keating has an amendment at the 
desk. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2059 offered by Mr. Keating 
and Mr. Cicilline. A bill to prohibit funding to the United 
Nations Population Fund. Be it enacted by the Senate and House 
of Representatives of the United States of America in Congress 
assembled, section 1. Prohibition on funding to United Nations 
Population Fund. Notwithstanding any other provision of law, 
the Secretary of State may not make a contribution to the 
United Nations Population Fund (UNFPA), which would support 
coercive----
    Chairman Ros-Lehtinen. The Chair reserves a point of order, 
and recognizes the author for 5 minutes to explain the 
amendment.
    [The amendment offered by Mr. Keating and Mr. Cicilline 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Keating. Thank you, Madam Chair. This really dovetails 
into the comments that my colleague who just preceded me talked 
about. One of the things that I had considered as a final 
amendment was not allowing funds at all to a country that had a 
policy of coercive abortion, and a policy like China's one-
child policy. I was concerned, however, Madam Chair, that there 
might be a point of order against that.
    And to try and be on point, and to have this survive a 
point of order, and make clear one thing--and that is this: 
That there have been a lot of arguments that have been made 
through the discussion of this, that the reason people opposed 
it was because of China's one-child policy, its coercive 
abortion policy.
    Albeit, there have been other arguments that have been made 
in terms of financing and the use of funds, generally speaking 
whether or not we can afford that, from my standpoint I think 
that these are really cost-saving measures that are going to 
save our country in other respects so many times over that it 
is a good investment.
    However, I want to use--I put this amendment in to just 
clarify the fact that--and make, as part of this legislation, 
something that is there with the reauthorization of Kemp-Kasten 
that we do, and just make sure that we are clear, those of us 
that want to be, like myself, that we do not want any of the 
UNFPA funds used for coercive abortion and China's one-child 
policy.
    So that is the intent of it. The intent of it is one of 
clarification, for those of us that want to be clear on 
something that, perhaps, through the course of the discussion 
today, wasn't clear. So with that, I hope that this amendment 
is adopted. I do think that it serves as a very strong message 
from this committee. I think, for those of us that believe that 
the UNFPA funding serves some purpose, it also clarifies the 
fact that many of us want to make sure that those funds are not 
used that way.
    And I think this complements Kemp-Kasten in that respect, 
and for that matter I hope and urge all the members of the 
committee who have spoken so strongly on this issue to work 
together and find an amendment we can all agree on. Thank you, 
Madam Chair. I yield my time.
    Chairman Ros-Lehtinen. Thank you so much. The gentleman 
yields back. Mr. Smith is recognized.
    Mr. Smith. I would just say that the first part of Ms. 
Ellmers' proposed bill is, ``Notwithstanding any other 
provision of law.'' We know that Kemp-Kasten has not--or we 
believe it has not been faithfully adhered to. The President of 
the United States, on January 23rd, 2009, a couple of days 
after he took office: ``I look forward to restoring U.S. 
financial support to the U.N. Population Fund.''
    There had been no analysis done by the State Department. 
There had been no due diligence done. This would shift it back 
to the administration to suggest that they are going to take 
another look at it. They can do that right now. It is because 
we are frustrated by the lack of application of Kemp-Kasten in 
a faithful way that Ms. Ellmers is offering this very, very 
important human rights bill.
    Chairman Ros-Lehtinen. And the gentleman yields back. 
Hearing--oh, Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Madam Chairman. I am not sure I 
understood the argument that was just advanced. If, in fact, 
the concern is that resources would be devoted to supporting 
coercive abortion or supporting China's one-child policy, Mr. 
Keating's amendment makes it very clear that that cannot happen 
in this provision of the bill.
    And whether Kemp-Kasten clearly already does that, this 
reinforces that. And I think it would go a long way toward 
settling, once and for all, so that we won't have to spend lots 
of time on this question, because it would be clearly stated in 
the bill. But I would also like to ask if a member of the 
committee knows the answer to this: I have been advised that 
not a single penny of U.S. taxpayer money is spent in China by 
UNFPA. Not one penny.
    If that is true----
    Chairman Ros-Lehtinen. If the gentleman would like Mr. 
Smith to respond to that?
    Mr. Cicilline. Yes, I would certainly yield to Mr. Smith.
    Mr. Smith. First, on the latter point, money is absolutely 
fungible. And the money that we contribute--it all really comes 
down to, I say to my good friend, how barbaric do you regard 
forced abortion to be.
    Mr. Cicilline. I am reclaiming----
    Mr. Smith. This organization is on the ground and we are--
--
    Mr. Cicilline. I am reclaiming my time.
    Mr. Smith. No, I----
    Mr. Cicilline. I am reclaiming. I think there is no 
question it is barbaric. There is no disagreement about that. 
But if, in fact----
    Mr. Smith. And we are doing this with other programs.
    Mr. Cicilline. I've reclaimed my time.
    Chairman Ros-Lehtinen. Mr. Cicilline has the time.
    Mr. Cicilline. If, in fact--no, and I appreciate the 
gentleman's passion on this, because I think we all have the 
same view: Of course it is barbaric. But if, in fact, it is 
true, and as it seems to be confirmed by your response to my 
question, that not a single penny of U.S. taxpayer money is 
spent in China by UNFPA, that is an important fact.
    And so I think it confirms that Kemp-Kasten is being 
applied. It will make the Keating amendment just a 
reinforcement of that. But in fact, taxpayer money is not 
currently being spent by this agency, U.S. taxpayer money, in 
China. Not a single penny. That is an important fact for the 
committee to know.
    And I yield back the balance of my time.
    Chairman Ros-Lehtinen. Mr. Smith wants to know if you would 
yield.
    Mr. Smith. Let me say to my colleague that, again, this is 
grant money. There is no treaty obligation here. This is grant 
money. Who we donate to does matter. If the organization has a 
program that supports coercive population control, refuses any 
kind of transparency, I think we have a reason to say, ``We 
will put the money somewhere else.''
    Let me also point out to my friend and colleague that, in 
the bill we just passed, the underlying law, the Trafficking 
Victims Protection Act, makes it very clear that the Department 
will terminate any grant, contract, or cooperative agreement if 
the grantee or subgrantee engages in any severe form of human 
trafficking. ``Severe form'' is one instance. Here we are 
talking about massive imposition of human rights abuse upon 
women.
    Mr. Cicilline. No, I agree. And reclaiming my time, it 
would seem to me that that would argue in favor of the 
amendment. And the key word you just said is, ``If there is an 
agency that does that.'' I think we have seen emphatically that 
they do not support this policy, that they do not support--in 
fact, they support voluntary decision-making in health care.
    So I agree with you. If that were the case, that would 
warrant looking at their funding. But that is not the fact, 
that we have heard repeatedly throughout this hearing and from 
the supporting materials we got prior to this hearing. So I 
don't know if he wants to----
    Mr. Smith. Will you yield again, very briefly?
    Mr. Cicilline. I yield.
    Mr. Smith. Two weeks ago I held a hearing on the massive 
crime against women and children on the 32nd anniversary--I 
hate the word anniversary, but remembering that that is, almost 
to the day, when that program was initiated, with UNFPA having 
a hand-and-glove relationship since 1979 with the hardliners in 
Beijing.
    With all due respect, not one Democratic Member showed up. 
And I hoped desperately for Members to be there, to hear the 
testimony from Chai Ling, two other women who were forcibly 
aborted. Because it is not until you really realize the 
desperation that these women have suffered, going through that 
forced abortion, the fact that in one case, the woman talked 
about how they held her husband. There is no doubt that they 
hold other family members, they being the State Family Planning 
Cadres, until the woman submits to a voluntary abortion.
    Chairman Ros-Lehtinen. Thank you. Mr. Cicilline's time has 
expired. Hearing no further requests for recognition--oh, yes. 
Sorry. You are recognized for 5 minutes, Mr. Carnahan
    Mr. Carnahan. I will not take 5 minutes, but I have been 
sitting here throughout this debate. And maybe this amendment 
should have been the first amendment that was brought up today. 
Because I don't think there is a single member on this 
committee--with respect to Mr. Smith and others--that supports 
any kind of coercive abortion policy. Not one member on this 
committee, I would venture to say.
    And if that is the case, then we should all support this 
amendment. This is clear, no matter what you think is going on, 
whether you think this is already in current law or not, or 
needs clarification, this seems very clear, that funds would 
not go to this. I think we all should be able to agree on that. 
Let us do that, instead of sending a mixed message about what 
we are doing with these funds.
    This amendment, I think, helps clear that up. And I would 
hope we can support this amendment. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Before you yield back, I think Mr. 
Burton wanted to see if you would yield, instead of taking his 
own time. Mr. Burton?
    Mr. Carnahan. I would yield to my friend from Indiana, yes.
    Chairman Ros-Lehtinen. Dealing with the definition of 
support by the administration. Mr. Burton, he is yielding.
    Mr. Burton. Thank you, Madam Chairman. By allowing the 
administration to define support, this would be a reversion to 
the status quo. And the other side is making our point: The 
administration currently claims that UNFPA funding does not 
support China's coercive policy. There is obviously, obviously 
disagreement.
    Chairman Ros-Lehtinen. Mr. Burton yields back. And do you 
yield back your time?
    Mr. Carnahan. I happily yield back, Madam Chair.
    Chairman Ros-Lehtinen. Thank you so much, sir. And Mr. 
Marino is recognized.
    Mr. Marino. One minute. My colleague, on the other side at 
the end, we passionately argue. It is in our heritage. But I do 
want to clarify one statement. There is a report, according to 
Secretary of State Colin Powell, when he was Secretary of 
State. It stated that the UNFPA contributed vehicles and 
computers to the Chinese to carry out their population control 
policies.
    Now, I was not being selective in reports, as it was 
stated. I was only answering a question that has been 
repeatedly asked: ``Give us some information, or a fact.'' And 
I have to believe Colin Powell that funds have been used by the 
Chinese to carry that out.
    Granted, it was when the Secretary of State was in office, 
and there has been a subsequent report. So I just wanted to 
make that clear. According to Colin Powell, expenditures were 
made.
    Thank you. I yield back.
    Chairman Ros-Lehtinen. The gentleman yields back. Seeing no 
further requests for recognition, the Chair withdraws her 
reservation and the question occurs on the amendment. All those 
in favor, say aye.
    [Ayes.]
    Chairman Ros-Lehtinen. All opposed, no.
    [Noes.]
    Chairman Ros-Lehtinen. In the opinion of the Chair, the 
noes have it, and the amendment is not agreed to.
    Mr. Keating. Madam Chair, I definitely ask for a recorded 
vote on this.
    Chairman Ros-Lehtinen. Mr. Keating asks for a recorded 
vote. The clerk will call the roll.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton.
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    [No response.]
    Ms. Carroll. Mr. Royce.
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot.
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul.
    [No response.]
    Ms. Carroll. Mr. Pence.
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson.
    [No response.]
    Ms. Carroll. Mr. Mack.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry.
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul.
    [No response.]
    Ms. Carroll. Mr. Poe.
    [No response.]
    Ms. Carroll. Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt.
    Ms. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson.
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera.
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly.
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin.
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino.
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan.
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle.
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers.
    Ms. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Turner.
    Mr. Turner. No.
    Ms. Carroll. Mr. Turner votes no.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    [No response.]
    Ms. Carroll. Mr. Payne.
    [No response.]
    Ms. Carroll. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel.
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks.
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan.
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires.
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza.
    [No response.]
    Ms. Carroll. Mr. Chandler.
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins.
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz.
    [No response.]
    Ms. Carroll. Mr. Murphy.
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson.
    [No response.]
    Ms. Carroll. Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Manzullo.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Chairman Ros-Lehtinen. Ms. Schwartz.
    Ms. Schwartz. No.
    Ms. Carroll. Ms. Schwartz votes----
    Ms. Schwartz. Aye.
    Ms. Carroll [continuing]. Aye.
    Chairman Ros-Lehtinen. The clerk is good. She edits your 
votes. The clerk will report the vote.
    Ms. Carroll. Madam Chair, on that vote there are 16 ayes 
and 22 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to. And like a typical politician, I fibbed. I 
said it was the last amendment, but Mr. Meeks has the last 
amendment, I am sure. Mr. Meeks is recognized, and the clerk 
will report the amendment.
    Ms. Carroll. Amendment to H.R. 2059 offered by Mr. Meeks 
and Ms. Wilson. In section 1, insert ``and except as provided 
in section 2'' before ``the Secretary of State.'' Add at the 
end of the following: Section 2. Exception. Section 1 shall not 
apply in the case of contributions to UNFPA to carry out 
activities in Haiti.
    [The amendment offered by Mr. Meeks and Ms. Wilson of 
Florida follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Ros-Lehtinen. And Mr. Meeks is recognized for 5 
minutes.
    Mr. Meeks. Thank you, Madam Chairman. And thank you to the 
ranking member, Mr. Berman. Now, this basically is a simple 
amendment that we have before us today, and it states that 2059 
would not apply to activities in Haiti. Now, I, overall--this 
bill, I have problems with it, period. But when you look at 
what is taking place in Haiti, and to say that UNFPA should not 
provide the vital services that it is currently providing in 
Haiti--it provides critical health services to both mothers and 
children, especially in nations that are impoverished.
    To me, it becomes a matter of--we really need to examine 
our own consciences if we talk about cutting these tremendous 
services, these much-needed services, to a country like Haiti. 
Why are we going to hinder the kinds of aid that they need? Why 
would we have a problem with trying to help mothers, or to 
ensure that mothers are able to celebrate life with her child?
    What this bill is doing, what this bill talks about, it 
talks about because, as we sit here--this amendment--as we sit 
here, comfortably, there is an entire nation that is in ruins. 
There is an entire nation attempting to rebuild, and there is 
an entire nation that we have committed to assisting.
    So why are we undercutting the commitment to Haiti now? One 
in every 47 pregnancies in Haiti turns fatal during delivery. 
One in every 47 pregnancies in Haiti turns fatal during 
delivery. Why would we ever dream of cutting funding to a 
program that recruits senior midwives to dedicate a year in 
Haiti, to address the shortage of experienced maternity 
clinics? Why would we ever consider cutting funding to a 
program that provides blood transfusions to a nation such as 
this?
    This seems to me the very essence of what we want to do. 
And if we were honest with ourselves with this piece of 
legislation, we would target cutting funds to those areas of 
the UNFPA considered to be offensive, not just get rid of the 
whole program. A wholesale cutting of funding to an entire 
program is not a path forward, especially if I have not heard 
any alternatives proposed.
    So what it will do is, if we eliminate this funding, it is 
like amputating an arm to deal with an elbow scrape. And no one 
here would recommend that. And therefore, that is why I have 
got a problem with recommending passing this bill. Now, I 
understand the spirit in which things are done, but I would ask 
all my colleagues to seriously consider their votes in its 
entirety on this bill, and especially also their vote on this 
amendment, which I think is an amendment that is good, that is 
still tacked onto a bill that I have a problem with.
    But in the end, I ask people to please, remember Haiti. 
Please think about how all of us felt when that devastating 
earthquake took place. We should not--and we made a commitment 
that it shouldn't have been just a 2-week effort to help those 
individuals in Haiti. It should have been a continuing 
struggle, a continuing fight and commitment on our part. 
Eliminating all funding to Haiti will show that we are going 
back on our word then, and turning our back on the neediest of 
the needy.
    And we talk about life, but this helps those women who are 
pregnant bring that life forward without that child dying in 
birth. And so, Madam Chair, I ask that we vote aye on this 
amendment. And I yield back.
    Chairman Ros-Lehtinen. Thank you very much, sir. Seeing and 
hearing no further requests for time, the question occurs on 
the Meeks amendment. All those in favor, say aye.
    [Ayes.]
    Chairman Ros-Lehtinen. All opposed, no.
    [Noes.]
    Chairman Ros-Lehtinen. In the opinion of the Chair, the 
noes have it, and the amendment is not agreed to.
    Mr. Meeks. Recorded vote.
    Chairman Ros-Lehtinen. Mr. Meeks would like a recorded 
vote, and the clerk will call the roll, please.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton.
    [No response.]
    Ms. Carroll. Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce.
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot.
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul.
    [No response.]
    Ms. Carroll. Mr. Pence.
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson.
    [No response.]
    Ms. Carroll. Mr. Mack.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry.
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul.
    [No response.]
    Ms. Carroll. Mr. Poe.
    [No response.]
    Ms. Carroll. Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt.
    Ms. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson.
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera.
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly.
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin.
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino.
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan.
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle.
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers.
    Ms. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Turner.
    Mr. Turner. No.
    Ms. Carroll. Mr. Turner votes no.
    Mr. Berman.
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman.
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega.
    [No response.]
    Ms. Carroll. Mr. Payne.
    [No response.]
    Ms. Carroll. Mr. Sherman.
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel.
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks.
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan.
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires.
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly.
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch.
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza.
    [No response.]
    Ms. Carroll. Mr. Chandler.
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins.
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz.
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy.
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson.
    [No response.]
    Ms. Carroll. Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline.
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Burton. Am I recorded?
    Ms. Carroll. You are not recorded, Mr. Burton.
    Mr. Burton. I vote no.
    Ms. Carroll. Mr. Burton votes no.
    Chairman Ros-Lehtinen. The clerk will report the vote.
    Ms. Carroll. Madam Chair, on that vote there are 16 ayes 
and 22 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to.
    Hearing no further amendments, the question occurs on 
agreeing to the bill H.R. 2059. The clerk will call the roll.
    Ms. Carroll. Madam Chair.
    Chairman Ros-Lehtinen. Aye.
    Ms. Carroll. The chairman votes aye.
    Mr. Smith.
    Mr. Smith. Aye.
    Ms. Carroll. Mr. Smith votes aye.
    Mr. Burton.
    [No response.]
    Ms. Carroll. Mr. Gallegly.
    Mr. Gallegly. Aye.
    Ms. Carroll. Mr. Gallegly votes aye.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Aye.
    Ms. Carroll. Mr. Rohrabacher votes aye.
    Mr. Manzullo.
    Mr. Manzullo. Aye.
    Ms. Carroll. Mr. Manzullo votes aye.
    Mr. Royce.
    [No response.]
    Ms. Carroll. Mr. Chabot.
    Mr. Chabot. Aye.
    Ms. Carroll. Mr. Chabot votes aye.
    Mr. Paul.
    [No response.]
    Ms. Carroll. Mr. Pence.
    Mr. Pence. Aye.
    Ms. Carroll. Mr. Pence votes aye.
    Mr. Wilson.
    [No response.]
    Ms. Carroll. Mr. Mack.
    Mr. Mack. Yes.
    Ms. Carroll. Mr. Mack votes aye.
    Mr. Fortenberry.
    Mr. Fortenberry. Yes.
    Ms. Carroll. Mr. Fortenberry votes aye.
    Mr. McCaul.
    [No response.]
    Ms. Carroll. Mr. Poe.
    [No response.]
    Ms. Carroll. Mr. Bilirakis.
    Mr. Bilirakis. Yes.
    Ms. Carroll. Mr. Bilirakis votes aye.
    Ms. Schmidt.
    Ms. Schmidt. Aye.
    Ms. Carroll. Ms. Schmidt votes aye.
    Mr. Johnson.
    Mr. Johnson. Aye.
    Ms. Carroll. Mr. Johnson votes aye.
    Mr. Rivera.
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly.
    Mr. Kelly. Aye.
    Ms. Carroll. Mr. Kelly votes aye.
    Mr. Griffin.
    [No response.]
    Ms. Carroll. Mr. Marino.
    Mr. Marino. Aye.
    Ms. Carroll. Mr. Marino votes aye.
    Mr. Duncan.
    Mr. Duncan. Aye.
    Ms. Carroll. Mr. Duncan votes aye.
    Ms. Buerkle.
    Ms. Buerkle. Aye.
    Ms. Carroll. Ms. Buerkle votes aye.
    Ms. Ellmers.
    Ms. Ellmers. Aye.
    Ms. Carroll. Ms. Ellmers votes aye.
    Mr. Turner.
    Mr. Turner. Aye.
    Ms. Carroll. Mr. Turner votes aye.
    Mr. Berman.
    Mr. Berman. No.
    Ms. Carroll. Mr. Berman votes no.
    Mr. Ackerman.
    Mr. Ackerman. No.
    Ms. Carroll. Mr. Ackerman votes no.
    Mr. Faleomavaega.
    [No response.]
    Ms. Carroll. Mr. Payne.
    [No response.]
    Ms. Carroll. Mr. Sherman.
    Mr. Sherman. No.
    Ms. Carroll. Mr. Sherman votes no.
    Mr. Engel.
    Mr. Engel. No.
    Ms. Carroll. Mr. Engel votes no.
    Mr. Meeks.
    Mr. Meeks. No.
    Ms. Carroll. Mr. Meeks votes no.
    Mr. Carnahan.
    Mr. Carnahan. No.
    Ms. Carroll. Mr. Carnahan votes no.
    Mr. Sires.
    Mr. Sires. No.
    Ms. Carroll. Mr. Sires votes no.
    Mr. Connolly.
    Mr. Connolly. No.
    Ms. Carroll. Mr. Connolly votes no.
    Mr. Deutch.
    Mr. Deutch. No.
    Ms. Carroll. Mr. Deutch votes no.
    Mr. Cardoza.
    [No response.]
    Ms. Carroll. Mr. Chandler.
    Mr. Chandler. No.
    Ms. Carroll. Mr. Chandler votes no.
    Mr. Higgins.
    Mr. Higgins. No.
    Ms. Carroll. Mr. Higgins votes no.
    Ms. Schwartz.
    Ms. Schwartz. No.
    Ms. Carroll. Ms. Schwartz votes no.
    Mr. Murphy.
    Mr. Murphy. No.
    Ms. Carroll. Mr. Murphy votes no.
    Ms. Wilson.
    [No response.]
    Ms. Carroll. Ms. Bass.
    Ms. Bass. No.
    Ms. Carroll. Ms. Bass votes no.
    Mr. Keating.
    Mr. Keating. No.
    Ms. Carroll. Mr. Keating votes no.
    Mr. Cicilline.
    Mr. Cicilline. No.
    Ms. Carroll. Mr. Cicilline votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Burton. Madam Chair?
    Ms. Carroll. Mr. Burton, you are not recorded.
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Chairman Ros-Lehtinen. Yes.
    Mr. Burton. Oh, excuse me. Let me correct that, aye.
    Ms. Carroll. Mr. Burton off no, on aye.
    Mr. Royce.
    Mr. Royce. Aye.
    Ms. Carroll. Mr. Royce votes aye.
    Chairman Ros-Lehtinen. Mr. Griffin.
    Mr. Griffin. Aye.
    Ms. Carroll. Mr. Griffin votes aye.
    Chairman Ros-Lehtinen. Mr. Payne.
    Mr. Payne. No.
    Ms. Carroll. Mr. Payne votes no.
    Chairman Ros-Lehtinen. Mr. McCaul.
    Ms. Carroll. Mr. McCaul.
    Mr. McCaul. I vote aye.
    Ms. Carroll. Mr. McCaul votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded? The 
clerk will report the vote.
    Ms. Carroll. Madam Chair, on that vote there are 23 ayes 
and 17 noes.
    Chairman Ros-Lehtinen. The ayes have it, and the question 
is agreed to. The Chair moves that the bill be reported 
favorably to the House. All those in favor say aye.
    [Ayes.]
    Chairman Ros-Lehtinen. All opposed, no.
    [No response.]
    Chairman Ros-Lehtinen. In the opinion of the Chair, the 
ayes have it and the motion is agreed to. I want to thank all 
the members and the staff for their work and cooperation that 
went into today's markup. Having concluded our business, the 
committee stands adjourned. Thank you very much.
    [Whereupon, the committee was adjourned at 1:48 p.m.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
